<html>
<title> - THE ROLE OF UNMANNED AERIAL SYSTEMS IN BORDER SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






         THE ROLE OF UNMANNED AERIAL SYSTEMS IN BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON BORDER, MARITIME, AND
                        GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2010

                               __________

                           Serial No. 111-75

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                  U.S. GOVERNMENT PRINTING OFFICE
 64-701 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                     Henry Cuellar, Texas, Chairman
Loretta Sanchez, California          Candice S. Miller, Michigan
Jane Harman, California              Michael T. McCaul, Texas
Zoe Lofgren, California              Gus M. Bilirakis, Florida
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
Ann Kirkpatrick, Arizona             Lamar Smith, Texas
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Al Green, Texas                          Officio)
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Alison Northop, Staff Director
                          Nikki Hadder, Clerk
                Mandy Bowers, Minority Subcommittee Lead














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Border, 
  Maritime, and Global Counterterrorism..........................     1
The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     6

                               Witnesses

Mr. Michael C. Kostelnik, Major General, USAF (Ret.), Assistant 
  Commissioner, Office of Air and Marine, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Vincent B. Atkins, Rear Admiral, Assistant Commandant for 
  Capability (CG-7), United States Coast Guard:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Ms. Nancy Kalinowski, Vice President, System Operations Services, 
  Air Traffic Organization, Federal Aviation Administration; 
  Accompanied by John M. Allen, Director, Flight Standards 
  Service, Federal Aviation Administration:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                                Appendix

Questions From Chairman Bennie G. Thompson of Mississippi for 
  Michael C. Kostelnik...........................................    43
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Nancy Kalinowski and John M. Allen.............................    44

 
         THE ROLE OF UNMANNED AERIAL SYSTEMS IN BORDER SECURITY

                              ----------                              


                        Thursday, July 15, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Jackson Lee, 
Kirkpatrick, Pascrell, Green, Miller, Rogers, McCaul, and 
Smith.
    Also present: Representative Carney.
    Mr. Cuellar [presiding]. The subcommittee will come to 
order. The Subcommittee on Border, Maritime, and Global 
Counterterrorism is meeting today to receive testimony on the 
role of unmanned aerial systems in border security.
    We meet here today at a critical juncture at our Nation's 
border and homeland security. As 21st Century threats evolve, 
our country is facing new challenges that demand new solutions.
    At our northern and our southern border, we have taken 
critical steps to interdict the flow of illegal weapons, 
people, drugs, and cash. Since 2007, Congress has continued to 
increase border security funding. As a result, we have doubled 
the number of border patrol agents from 10,000 in 2004 to over 
20,000 today.
    Still, our Nation's communities along our borders and 
coastal waters face a unique exposure to threats. To mitigate 
those risks, we have to deploy a combination of manpower, 
knowledge, and resources to strengthen our strategy for 
securing our borders. Unmanned aerial system and a remotely 
pilot aircraft, known as the UAV, or the Unmanned Aerial 
Vehicle, is a relative new means for providing real-time 
intelligence to combat illegal activity along our borders.
    For the past 5 years, this aircrafts have patrolled our 
northern and southern border, providing critical intelligence 
to our law enforcement officers. UAVs essentially put eyes in 
the sky to give us real-time view of what is happening on the 
ground.
    In remote sections of our borders, these aircraft give us a 
window we don't otherwise have with ground patrol alone. UAVs 
are a force multiplier for our Federal, State, local law 
enforcement as they provide the intelligence to help detect, 
disrupt, and dismantle unlawful activity along our borders.
    UAVs also give law enforcement and prosecutors the 
necessary evidence to prosecute criminals engaged in narcotic, 
human, and bulk cash smuggling, as well as arms trafficking. 
Increasingly, UAVs will become a familiar means for providing 
our homeland security. Thus, we are joined here today to 
discuss how the Department of Homeland Security uses UAVs 
within their portfolio to secure our Nation.
    Many of us here today understand the challenges of 
expanding this program. Through this forum, I would like for us 
to inspire new ways to overcome these challenges.
    Currently, there are five UAVs patrolling our borders, plus 
a most recent maritime variant, that just completed a pilot off 
the coast of Florida this spring. After months of work with 
Customs and Border Protection, the Federal Aviation 
Administration--the first-ever certificate authorization allow 
UAVs flights in Texas was approved this June. We say thank you.
    Effective September 1, this approval will allow UAV flights 
to patrol the Texas-Mexico border which shares waters with 
neighboring Mexico.
    Keep in mind that the Texas-Mexico border spans 1,200 miles 
of the 2,000-mile border of the Nation's southern border. Thus, 
deploying a UAV to Texas is a critical step in securing the 
U.S.-Mexico border.
    As a representative of the Nation's largest inland trading 
port in Laredo, Texas, I can tell you that communities that I 
represent are the front line of the U.S.-Mexico policy every 
day. Mrs. Miller will, of course, in a very eloquent way, talk 
about the northern border and, of course, the coastal that is 
so important.
    As violence continues in neighboring Mexico, our 
communities feel the impact across the Rio Grande, the narrow 
river that connects our two nations. 2010 has reached a boiling 
point as turf wars and gunfire unfold just minutes from our 
neighborhoods, and American families don't travel to Mexico as 
frequently as they did, and now Mexicans fear traversing the 
Mexican border towns to enter the United States.
    Since January alone, just miles from my district in 
neighboring Mexico, we have seen two consulates forced to be 
closed and reopened, two USDA livestock inspection sites in 
Mexico closed, then reopened on the U.S. side because they 
don't want to send their personnel across the river, most about 
drug-related shootings, pirates intimidating American boaters 
on the Falcon Lake and other activities that have disrupted the 
lives of U.S. citizens.
    These are types of situations where putting eyes in the sky 
can assist law enforcement in monitoring patterns and practices 
of our criminal organizations along the border. Monitoring 
these situations will give us an opportunity to prevent a 
spillover of violence from Mexico into the United States.
    Moving forward, I want to hear how DHS will expand the role 
of UAVs as a means of border security in the future, lessons 
learned, plans looking ahead, and what Congress needs to do in 
the mean time.
    I do want to thank, of course, the presentation that the 
assistant commissioner, Mr. David Aguilar, and all have made to 
McCaul and myself and a couple other folks. We appreciate that.
    But, you know, we certainly want to look at how we can work 
with us. As--you know, my--standard language has been it is not 
us versus you, the Executive versus Congress, as we provide 
oversight. I am sure you don't take that personal, but it is 
one of the things that I think we need to look at, how we can 
work together as a team.
    So therefore, we are very, very interested in looking at 
the funding that we passed in the supplemental, waiting for the 
Senate. Hopefully the Senate will provide this funding, which 
is, in my opinion, one of the largest infusion of cash that we 
have added for border security, which includes an additional 
two UAVs also.
    But despite this funding, we have other obstacles to 
overcome. I know training pilots to fly these UAVs at home has 
proven difficult at times when similar aircraft have been used 
in wars in Iraq and Afghanistan. Today, I look forward to 
discussing, General, with you your view on how best we can 
attract and train and retain the UAV pilots to keep up with the 
pace of the new UAV systems in the United States.
    Specifically, we need to examine the challenges of training 
these pilots, the time it takes and what necessary means are to 
fulfill the future needs of this program. Then, we look to FAA, 
who is the entity responsible for approving the flights of this 
aircraft system. I am in particular interested in the process 
of how FAA approves the flights of this aircraft, the safety 
implications involved, and the timetable for their approval.
    Specifically, we need to discuss our border National 
security request for the certificate of authorizations filed in 
the--of other COA requests. We understand there is from 
universities to ag to many other requests, but certainly we are 
hoping that this border National security are at the top of the 
line.
    As I understand, you have over 180 pending COA requests 
before the FAA, and priority hopefully will be given to 
Homeland Security submittals. But what if there are multiple 
Homeland Security issues at one given time?
    Does the FAA have a contingency plan to place--to approve 
UAVs to respond to multiple National emergencies? Americans 
know threats don't wait for us to prepare, and now is the time 
for us to strengthen our strategy for combining technology and 
manpower to protect the homeland by way of domestic capability 
in addition to our efforts abroad.
    UAVs are one more tool for us to stay steps ahead and leaps 
above the threats that we face, and they can help deter and 
prevent illegal activity and threats to terrorism against the 
United States. In the event of a National crisis, they will 
provide critical eyes in the sky for what we can't see or do 
from the ground.
    So I look forward to our hearing today to examine and 
explore the role of unmanned aerial systems in providing border 
security, and certainly thank the witnesses for their time.
    For our Ranking Member, let me ask first if we have--we do 
have a video, but we are having a little--problems with the 
sound. Is everything ready to go, hopefully? Okay.
    At this time, for the Ranking Member and Members, I would 
like to view a video provided by DHS. It is a brief video clip, 
I think about 2 minutes and 25 seconds, to show us the 
capability of the CBP UAV program. I think this will be good to 
give us an idea of what--the UAV. So hopefully the sound is 
also working along with the video, and then--Mrs. Miller said 
that it might be a stealth drone where there is no sound, and I 
think we can. If we are ready? If not, we will continue. There 
is no pressure at all. Everything is fine.
    Well, as the young lady is figuring this out, I am going to 
now recognize the Ranking Member of the subcommittee, the 
gentlelady from Michigan, Mrs. Miller, for an opening 
statement.
    Mrs. Miller. Thank you, Mr. Chairman. I am just going to 
make a few short comments, and hopefully we will get to the 
video.
    I think it is important that we see the capability of the 
UAVs. I want to thank you, Mr. Chairman, for calling this 
hearing because as we think about what is happening in our 
Nation, and one of the issues that we see on the news every 
single day is the Arizona law and how that is a manifestation 
of a lot of frustration of citizens across the Nation about our 
not securing our border.
    What we are doing on this subcommittee I think is very 
important, because we have to think about all available 
resources that we have as a Nation, as a creative people, of 
how we can secure our borders. Certainly, when we see ourselves 
involved in theater, in Iraq and Afghanistan, I mean, even in 
South Korea at the DMZ, we are securing borders for other 
countries, and we can't secure our own border.
    We need to think about all of the resources that we have 
available. I mention Afghanistan and Iraq in particular because 
we see the fantastic capabilities of the UAVs. Here we have a 
situation where the American taxpayers have already paid for 
this. This is an essentially off-the-shelf hardware that has 
proved incredibly effective in theater with al-Qaeda and smart 
bombs.
    You know, they are flying along at very high altitudes, 
50,000-plus feet. Too bad if you lose one, but guess what? You 
didn't lose a soldier.
    You know, my husband was a fighter pilot in Vietnam 
theater, so--from another generation, but I told him, I said, 
``Dear, the glory days of the fighter jocks are over.'' The 
UAVs, Unmanned Aerial Vehicles, are coming.
    They are fantastic technology, and now you see our military 
sitting in a cubicle sometimes in Nevada, drinking a Starbucks, 
running these things in theater and being incredibly, 
incredibly successful. So I really appreciate us talking about 
these UAVs today.
    I think it is a critical component of a mix of resources. 
We are all very enthusiastic about the President sending 
National Guard troops to the border. We are enthusiastic about 
ramping up customs and border protection along the border, not 
only the southern border, but the northern border.
    This committee has had numerous hearings about SBInet, 
again not only along the southern border, but the northern 
border. I mention the northern border because Chairman talks 
about the southern border.
    I always say this: Believe me, I am incredibly sensitive 
and cognizant of what is happening on the southern border of 
our Nation with the drug cartels, with the kidnappings, with 
all of the terrible things that are happening there.
    But I represent a State, Michigan, along the northern 
border, and I always want to just make sure that we don't 
forget about the northern border as well. We have incredible 
things that are happening on the northern border, and we feel 
that we are getting a bit short-changed there. God forbid 
something is going to happen and they are going to say, ``You 
took all these resources down to the southern border, and you 
don't have anything at the northern border that you need 
there.''
    So I would just mention that. I don't mean it in a 
parochial way. I say it because I think it is in a very 
important part of our evaluation of how we secure our border 
and why these UAVs are so incredibly important. Because the 
Border Patrol says that we only have 32 miles under effective 
control for the north border, northern border, which is over 
4,000 miles.
    I live on the Great Lakes and, you know, when you just look 
at the water as far as you can see there, and realize the lack 
of resources that are happening there and the busy border 
crossings that we have--the busiest border crossings on the 
northern border in Michigan--the Ambassador Bridge, the Blue 
Water Bridge, which are the two busiest border--the CNN Rail 
Tunnel, the busiest rail entry into the entire Nation. So, 
again, I think having this kind of situational awareness that 
the UAVs can help us on the southern border, but also on the 
northern border as well.
    I would just mention that General Kostelnik and myself 
talked about a UAV mission at Selfridge Air National Guard 
Base, or at least having a ground mission somewhere along the 
northern border in my region, over 2 years ago. We were--and I 
will have a question about that--but we were told at that time 
we would have a ground mission by 2010.
    Of course, now we are moving all of that to the southern 
border. Again, I understand, but I do think, and I would ask 
this committee, to think about the northern border as well.
    I am glad to see the FAA here. We obviously can't talk 
about UAVs without the FAA here. I understand, everybody has a 
different mission, and have an expectation of you to accomplish 
your mission under extraordinarily challenging conditions.
    Easy for me to talk about the northern border when you have 
Detroit Metro Airport there that has almost half a million 
sorties, or flights, annually. It is incredibly busy air space. 
I don't know if it is a problem, but you have that challenge in 
New York and some of the other areas you have looked. You 
certainly have that in the Chairman's area, as well.
    I think, what the subcommittee wants to find out today is, 
how can we accommodate what is absolutely a priority for the 
Nation and the Congress as a reflection of the American people, 
securing our border and how we can utilize UAVs effectively. We 
do need to have the FAA's help with accommodating all of that.
    Again, I recognize the challenges. You just can't start 
flying these drones without thinking about what can happen in a 
very, very, very busy airspace with an antiquated air traffic 
control system. No fault of the FAA, but Congress needs to be 
moving a little further along on that, as well.
    But at any rate, Mr. Chairman, I appreciate the 
subcommittee having this hearing. I think, again, it is very, 
very important. We all share the same concerns and want the 
same outcome, which is border security and utilizing every 
resource that we have available to do so.
    With that, I would yield back.
    Mr. Cuellar. Thank you again very much. Mrs. Miller, we 
appreciate it. I think this is good to have, make sure we cover 
both the southern and the northern border, of course the 
coastal areas also.
    At this time, the Chairman now recognizes the Chairman of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I 
thank you for holding today's hearing to examine the Department 
of Homeland Security's use of unmanned aerial systems in its 
border and maritime security missions.
    You have worked diligently on this issue, and I thank you 
for it, which is particularly vital to you, given the district 
that you represent along our Nation's border.
    Last week I visited Arizona, where I heard first-hand from 
residents about the need to--and to secure America's southwest 
border. So it is particularly fitting this hearing is being 
held today.
    Along with providing appropriate personnel and 
infrastructure, deploying effective technology is an essential 
part of the Department's border and maritime security efforts. 
I am interested in hearing more today about unmanned aerial 
systems can assist Customs and Border Protection and the Coast 
Guard in that regard.
    At the same time, we know that this technology can be 
utilized in disaster response, such as the recent Deepwater 
Horizon oil spill. It is my understanding that DHS's UAS assets 
have been tasked with providing aerial images from the Gulf in 
the wake of this spill.
    Like my colleagues, I strongly support providing the men 
and women of DHS with the tools they need to carry out their 
vital work on behalf of our Nation. However, I have some 
questions for our panel. Today, I hope to hear specifics about 
how UASs can help CBP and the Coast Guard to fulfill their 
missions.
    Technology is intended to be a force multiplier. Given the 
cost of this technology, we should have a clear understanding 
of what the American taxpayers are getting for their money.
    I also hope to hear about some of the challenges CBP and 
Coast Guard face in deploying UASs along our borders and shores 
and how we might be of assistance. For example, there might be 
a great deal of concern about the length of time it takes DHS 
to obtain a certificate of authorization to fly UASs in the 
Nation's airspace.
    It is my understanding that this process has improved of 
late, which is good to hear. However, FAA and DHS must continue 
to work together to ensure that these COAs are issued in a 
timely manner while still ensuring the safety of our airspace.
    CBP has also reported that a shortage of qualified UAS 
pilots is a persistent problem given the demand for such pilots 
in the military and elsewhere. If funding is provided for 
additional UASs, this pilot shortage must be addressed.
    To the extent that Congress can be helpful in overcoming 
these challenges, we certainly want to do so. Both CBP and 
Coast Guard intend to expand their UAS program significantly in 
the coming years.
    It is imperative that they do so in a way that makes the 
most of our limited homeland security resources. Certainly the 
American people and border community residents in particular 
expect no less.
    I thank our witnesses for being here today, and I look 
forward to their testimony. I yield back, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, I ask for unanimous consent that 
Representative Carney, a Member of the committee, be able to 
sit and question the witnesses at this morning's hearing.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted on the 
record. Now welcome our panel of witnesses.
    The first witness is Major General Michael T. Kostelnik, is 
the assistant commissioner of the U.S. Customs and Border 
Protection Office of Air Marine, the world's largest aviation 
and maritime law enforcement organization.
    The general has served in the Government for over 38 years. 
Prior to joining CBP, he was deputy associate administrator for 
space station and space shuttle at NASA.
    Before joining NASA, the general spent 32 years on active 
military duty with the U.S. Air Force and serving as a fighter 
pilot, experimental test pilot, and a designated acquisition 
commander, among other positions. His best qualification, he is 
also a Texas A&M graduate, Aggie, from the university there.
    By accident, Mr. Chairman, we also have another Texan from 
San Antonio. It was not planned this way. Right, Michael?
    Our second witness is Rear Admiral Vincent B. Atkins from 
the San Antonia area, Lamar, who is an assistant commander for 
capability for the United States Coast Guard. In that position, 
Admiral Atkins is responsible for identifying and providing 
service-wide capability and capacity and for developing 
standards for staffing, training, equipment, sustaining and 
maintaining, employing Coast Guard forces to meet mission 
requirements.
    He previously served as the deputy director of response 
policy, where he oversaw the development of strategic doctrine 
and policy guidance for the Coast Guard's statutory mission. 
Rear Admiral Atkins has served innumerable afloat-ashore staff 
assignments since graduating from the Coast Guard Academy in 
1982.
    We also have our third witness, Ms. Nancy Kalinowski, which 
is the vice president of assistance operations services to the 
air traffic organization at the Federal Aviation 
Administration, FAA. She is responsible for the overall 
Nation's National guidance for the air traffic flow of 
management, airspace management, information management, as 
well as the delivery of safe, secure, and efficient air traffic 
management and flight services for the National airspace 
system.
    During her more than 30-year career with the FAA, she has 
served in management and executive positions in human resource 
management, budget, communications, flight service, airspace 
management, design, and other sort of management and aviation 
safety. Certainly, as it was said a few minutes ago, we welcome 
the FAA here with us also.
    Our fourth witness, Mr. John Allen, joined the Federal 
Aviation Administration November 1991 and was appointed as the 
director of flight standard service in December 2008. He leads 
an organization of more than 4,800 aviation professionals 
responsible for the promoting safety for civil aircraft by 
setting regulation standards for aircraft agencies, general 
aviation, airmen, and designees.
    Flight standards also is responsible for the certification 
and inspection of surveillance investigation enforcement of 
aviation regulations. Mr. Allen retires a Brigadier General 
from the Air Force Reserves in 2009 after holding various 
command positions during his 31 years of active duty and 
Reserve military career.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask the witnesses to summarize 
their statements for 5 minutes, beginning with the general.
    But General, we are going to ask you--we always come up 
with practical solutions to problems that we might have. Since 
we are missing the audio, we will ask you to, before you do 
your statement, ask you to narrate the video there.
    I think hearing it from the general, this would be the best 
way to hear this. It was actually planned, Mr. Chairman, as we 
did this.
    So, General, if you want to go ahead and--why don't we run 
the video first, Members, so you can get an idea of what the 
UAVs are and the stations and the work, and then, after that, 
we will start with your prepared statement. General.
    Gen. Kostelnik. Before we run, if I could----
    Mr. Cuellar. Yes, hold it a second.
    Gen. Kostelnik. I have to say, this is actually a historic 
event that occurred last year almost at this same time. This 
was taking the Predator UAS to Oshkosh, the largest gathering 
of manned aviators in the world.
    Because there has been such a debate on see-and-avoid and 
aircraft, we are there routinely with other members of the 
Federal Government showcasing military aviation capabilities 
across a spectrum of missions.
    But in the last couple years, we have always brought the 
Predator B model, which is about--has a wingspan of about 4 
feet, very small sits on the table, and we show video to all 
the traveling pilots that come through the displays at Oshkosh. 
Almost to a person, they all thought that that little four-foot 
thing was a Predator.
    In reality, the Predator B, the MQ-9, which is the military 
Reaper that we fly is a very large aircraft. It is 66-foot 
wingspan, it is 10 foot tall, it is 36 foot long, but it is 
unmistakable.
    So at the request of the Experimental Aircraft Association, 
and with the partnership and support of the FAA, last year we 
brought the Predator--you will see that we are trucking in a 
control set so we can land it. We flew the Predator across 
through the National airspace, landed at Oshkosh, and then, for 
a week, had that aircraft on display for the American public 
that travels and would be most affected by the risk of unmanned 
aviation in the National airspace come by, talk to the pilots, 
look at the control set, see the aircraft. To a person, I 
believe they came away with a different perspective of the 
system, the risk and the mission that that aircraft does.
    As an aside, last year was a difficult year financially. 
There was another aircraft that was there, the Airbus A380. It 
is the largest airplane in the world. According to the EAA, in 
their own words, attendance at Oshkosh last year was up 36 
percent, and it was up primarily due to one of the smallest 
aircraft there, the Predator UAS, and one of the largest.
    So what you will see--and I will narrate through--this is 
our short vignette of our experience at Oshkosh air venture 
last year. You can run it, and I will navigate.
    [Begin video.]
    Gen. Kostelnik. We have a truck that--the ground control 
station. This is the formal system that we fly the airplane 
with, and you will see it being disassembled.
    This is our director, who runs our Oshkosh show. In the 
background, you will see the classic MQ-9, the aircraft that 
the military calls the Reaper, the aircraft that we call the 
Predator. Ours are unarmed but have all of the other systems.
    You can see it is a very large aircraft. This is in the 
early days of the show when we have flown the aircraft in. 
People would get a chance to look at the systems, look at the 
capabilities. You can see in the forward part an electro-
optical ball. This provides this type of video, so the aircraft 
sees in multiple spectrums--electro-optical, which is low-light 
level TV.
    This is an inside view, looking at the imagery. This is the 
kind of imagery that we will get in the ground. This is the 
actual control set. That is the pilot on the left side flying 
the displays. He is looking out through cameras in either the 
EO or clear ball looking out the front.
    This is typical of the kind of imagery. It is a movable 
ball, so you can look around. You can clear, and you are doing 
it in multiple spectrums. The EO optics, this is what it looks 
like looking behind the airplane. This is some of the image 
that we actually took during the hurricane support a couple 
years ago.
    Mr. Krogh was one of our most experienced launch and 
recover pilots. This is the crown jewel of UAS operations, 
those that actually take off and land the Predators. This is 
typical of the kind of imagery that we take, you know, during 
our mission sets.
    There are concerns about privacy that have been raised. But 
if you look at the type of imagery that we are taking, the 
things we are looking at and where we are, we are really on 
solid ground in those regards.
    This is a air pavilion behind it, just different vignettes 
of the equipment on the inside. What you are looking at is the 
kind of displays that the pilots have. All of our crews are FA-
certified pilots. Both the left seat pilot and the right seat 
sensor operator are FA-certified pilots, all part of our risk 
reduction program.
    That just gives you a good sense. It is a very popular 
show, and I think it offered a new perspective to the aviators 
when they saw the size of the airplane, the fact that it wasn't 
something programmed on its own but something being hand-flown 
virtually through the satellite infrastructure that came away 
with a different sense. I think the rest is probably 
repetitive.
    [End video.]
    Mr. Cuellar. Thank you for that narration. We appreciate 
it.
    General, why don't we go ahead and go with your actual 
statement?
    Gen. Kostelnik. Okay.
    Mr. Cuellar. Then we will proceed at that time. So you are 
recognized for 5 minutes to summarize your statements.

STATEMENT OF MICHAEL C. KOSTELNIK, MAJOR GENERAL, USAF (RET.), 
ASSISTANT COMMISSIONER, OFFICE OF AIR AND MARINE, U.S. CUSTOMS 
     AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Gen. Kostelnik. Chairman Thompson, Chairman Cuellar, 
Ranking Member Miller, thank you for your leadership, and 
thanks for this committee's support of homeland security 
mission.
    Air and marine is a very small organization on world 
standards, but in this area of flying unmanned vehicles, we are 
setting policy. We are the world leaders in homeland security.
    The Department of Defense has many more aircraft and a lot 
more experience overseas, but in the homeland, you might be 
surprised to know that we are the world's second-largest 
operator of the Predator B, this large Predator system that I 
have shown. There are about 35 aircraft in the Air Force 
inventory and, at the end of this year, we could have as many 
as 10 operational in our own.
    But on the world stage, taking these high-end--DOD 
technologies and applying them in the homeland, that is a 
unique skill. That is a unique talent. In the world stage, 
there is no organization that is more capable or more 
experienced for flying these technologies safely and 
effectively in the homeland.
    We have been operational for more than 5 years. We have 
flown more than 6,000 hours. We have flown the southwest border 
and the northern border on routine operations.
    In North Dakota we deployed, to Congressman Miller's point, 
to upstate New York. We have flown in partnership with our 
Canadian brothers along the St. Lawrence Seaway.
    While those have been routine operations helping to secure 
the Nation's border as part of a more complete secure border 
strategy, when we lay these assets down, people of all type 
wonder why are these things here. They are concerned about this 
or that.
    We are there for security reasons, but once we are there, 
we can do a great many things. In fact, 3 years ago when we had 
the unprecedented flooding in Iowa that caused a lot of 
problems, we could have put our assets into play to help there, 
but there wasn't the vision. There wasn't the thought. There 
wasn't the process. We didn't really quite have the capability.
    But 2 years ago, the leadership in the State of North 
Dakota, and it was bipartisan both sides, you know, 
specifically requested that we would help them in their time of 
need in terms of floods. So, 2 years ago, we flew the floods in 
North Dakota. We got a great response from the FAA. Short-
notice emergency colors were able to support that flood.
    Last year, or this past year, we flew the floods not only 
in North Dakota, but also in Minnesota as a result of our 
experience in North Dakota.
    Of course, we are into hurricane season now in the part of 
the country where I come from, the Gulf, and we flew 2 years 
ago all three hurricanes during that time period, again with 
the support and the cooperation of the FAA. These were, you 
know, unique and first-ever applications of this technology in 
those type of, you know, contingencies.
    Part of that experience was an unmanned flight that took 
off from NAS Corpus Christi and flew all across the country up 
to Delaware, making synthetic aperture radar cuts of all the 
significant infrastructure along the coast of the United 
States. That is in our databases.
    Now, from those same stills, if we get hurricanes in those 
same areas this year, we can, after the event, fly the same 
aircraft with the same technology and do fore-and-after 
difference analysis with our help from the NGA. From that we 
can determine early on significant infrastructure damage to 
dikes, dams, marinas, bridges, all of those kinds of things in 
a great new application of technology.
    While we are moving aggressively in this area to protect 
the country from terrorists, to support our missions in 
immigration and narcotics interdiction, you know, who could 
have imagined the Deepwater Horizon event? We are currently 
operational with both a Predator B, which we borrowed 
temporarily from our friends in North Dakota but will return to 
the northern border.
    We have our joint aircraft, the Guardian, flown jointly by 
the U.S. Coast Guard as well as CBP, stationed out at Cape 
Canaveral. For the last 2 weeks, we have been flying nightly 
missions in support of the Deepwater Horizon event using the 
unprecedented forward-looking infrared with professional 
maritime filters to create a unique database, feeding this 
information live to key management infrastructures not only in 
the Gulf but other places across the country.
    This, I think, conversation will be not only about 
performance and capability, but clearly about risk, given my 
friends with the FAA that are here. These aircraft are not 
without their risk. We are well early into this system, and 
there is a wide variety of capability with our UAS, everything 
from small handheld things to very large things.
    What should be allowed to fly on National airspace? Well, I 
think there are four things that capture this distinctly.
    One: What system you are flying? Ours is the most 
experienced in the world, more than a million operational 
flight hours.
    Two: Where you are trying to fly?
    Three: When you are trying to fly?--all of these things.
    Finally, the last W is the most important: Why you are 
trying to fly?
    U.S. Customs and Border Protection is a part of the 
Department of Homeland Security. We are flying to protect the 
country. We are trying to do the things to prevent a 9/11. But 
certainly, if there was a recurrence, we would put these 
aircraft into that same mode.
    I look forward to your questions, and appreciate your help 
and support in this area. Thank you, sir.
    [The statement of Gen. Kostelnik follows:]
               Prepared Statement of Michael C. Kostelnik
                             July 15, 2010
    Chairman Cuellar, Ranking Member Miller, Members of the 
subcommittee, it is a privilege and an honor to appear before you today 
to discuss the employment of the Predator B and Guardian Unmanned 
Aircraft System (UAS) for homeland security missions by U.S. Customs 
and Border Protection's (CBP) Office of Air and Marine (OAM), and in 
particular their role in border security operations. I want to begin by 
expressing my gratitude to the committee for its continuing support of 
the CBP mission, especially as it relates to our efforts to expand UAS 
operations over both the land and maritime borders of the United 
States.
    CBP has operated the Predator B UAS for over 5 years and has 
pioneered the employment of this high-end, long duration, remotely-
piloted aircraft in the National Airspace System (NAS) for border 
security and disaster assistance. Predator Bs, which can operate in 
excess of 20 hours during a single border search mission, currently 
patrol parts of both the southern and northern U.S. land borders and 
have logged more than 6,500 flight hours in support of CBP's border 
security mission. The newest addition to CBP's UAS family, a maritime 
search variant of the Predator B called the Guardian, carries a broad-
area sea-search radar with impressive long-range detection and tracking 
capabilities. Together, the Guardian and Predator B have enabled CBP to 
support the response to large-scale natural events such as hurricanes, 
floods, and the oil spill in the Gulf of Mexico; and have positioned 
CBP to confront ever-changing threats to the homeland in the future.
               current operations and deployment strategy
    CBP currently operates six Predator B aircraft, including the first 
maritime Guardian which was developed under a joint program office with 
the United States Coast Guard (USCG). A seventh aircraft, our second 
Guardian, is scheduled for delivery before the end of this year, and 
funding for a third Guardian is included in the President's fiscal year 
2011 budget request. The Predator family of aircraft has an evolving 
sensor suite and has flown over 1 million hours on defense missions. 
The CBP version of the aircraft has a 66-foot wing span and weighs over 
10,000 pounds. Since 2005, the main operating base for the UAS has been 
the U.S. Army's Fort Huachuca, located near Sierra Vista, AZ. CBP has 
three Predators deployed to Sierra Vista to conduct missions along the 
southwest border, and to develop tactics, test new sensors, and train 
new pilots and sensor operators. Since the UAS is designated by CBP as 
a National asset, broad operations are directed from OAM National Air 
Security Operations Office (NASO) in Washington, DC. Individual mission 
assignments are generally based on specific intelligence, intelligence 
trends, and requests from the CBP Field Commanders at the southwest and 
northern borders. Other Department of Homeland Security (DHS) component 
agencies, such as the Federal Emergency Management Agency (FEMA) and 
the USCG, as well as outside Federal agencies, such as the FBI and DEA, 
also make requests.
    In December 2008, CBP deployed its first Predator B to North Dakota 
to commence northern border operations and enhance pilot training 
opportunities. By February 2009, two aircraft were operating from Grand 
Forks Air Force Base, North Dakota. In the fall and winter of 2008 to 
2009, CBP Predators drawn from both the northern and southern borders 
supported FEMA missions during the southeastern hurricanes and the 
floods in North Dakota. During the hurricane activity, the Predators 
conducted pre- and post-event missions that mapped 260 critical 
infrastructure points of interest and provided FEMA and the Army Corps 
of Engineers vital video and change detection information on storm 
damage. During the North Dakota and Midwest floods of 2009, the 
aircraft flew nearly 100 hours during 11 missions, and provided video 
on the formation of ice dams so that action could be taken to destroy 
them and prevent the floods from expanding.
    CBP and the USCG began cooperating on UAS operations in 2007, 
beginning with a UAS rapid deployment demonstration to North Dakota 
named Agile Falcon. Using a USCG C-130 cargo aircraft, a complete 
system including the Predator B support equipment and ground control 
station was successfully airlifted, proving the capability that will 
eventually be used to support the introduction of the Guardian into the 
eastern Pacific drug transit zone. In March 2008, the USCG participated 
in a CBP-led demonstration of a maritime UAS capability off Tyndall Air 
Force Base, Florida. And in the months that followed, the USCG joined 
CBP in the creation of a Joint Program Office for the development of a 
maritime Predator variant.
    On the heels of a highly successful partnership with the North 
Dakota Air National Guard, CBP aggressively sought to expand operations 
to the eastern half of the northern border. In June 2009, OAM conducted 
a successful surge operation to the Great Lakes and St. Lawrence 
Seaway, operating from the Army's Wheeler-Sack air field at Fort Drum, 
New York. The air field at Fort Drum is perfectly located to support 
routine UAS operations along the northern maritime border, as well as 
contingency operations along the eastern seaboard. OAM also began work 
on a long-range partnership with the New York Air National Guard's 
174th Fighter Wing (FW) in Syracuse, New York, to share maintenance, 
training, and logistic support common to CBP Predators. The 174th FW 
also possesses the capability to support CBP UAS operations, either 
from Wheeler-Sack Army Air Field at Fort Drum, or directly from Hancock 
Field in Syracuse.
              access to the national airspace system (nas)
    The Predator B and Guardian are two high-end, remotely-piloted 
unmanned aircraft routinely operating in the NAS under Certificates of 
Authorization (COAs) from the Federal Aviation Administration (FAA). 
CBP has worked with the FAA to meet all requirements of its COA 
application process and the detailed, tailored requirements of 
individual certificates. OAM has demonstrated that the Predator B can 
be flown safely in the NAS, with operational limitations that ensure 
the safety of other NAS users and people and property on the ground. It 
is a proven operational system with redundant command and control, 
under the operational oversight of the Air and Marine Operations Center 
(AMOC), and the flight safety oversight of the FAA. It is flown along 
the Nation's borders and coastlines, primarily at night when civilian 
air traffic is low, and it is flown in support of critical National 
security missions. To date, 35 of 36 COA requests made by CBP have been 
approved by the FAA. The latest COA approvals have increased the miles 
of airspace available for UAS operations, including 1,103 miles above 
Texas, enabling CBP to deploy its unmanned aircraft from the eastern 
tip of California, across the land borders of Arizona, New Mexico, and 
Texas, and into the maritime border just short of the Texas and 
Louisiana border. The other recent COA approval granted access to 
airspace needed to deploy the Guardian UAS, and a Predator B 
temporarily re-deployed from North Dakota, over the Deepwater Horizon 
oil spill. CBP continues to work with the FAA to expand access from 240 
to over 900 miles along the northern border, west of North Dakota, and 
then, as resources permit, back to the Great Lakes and St Lawrence 
Seaway. The FAA has assured CBP that homeland security COA requests 
will be given top priority.
                   expanding into the maritime domain
    Work on a maritime variant of the Predator B began in late 2007 and 
the path forward to the new capability took shape after the UAS 
Maritime Demonstration conducted in March 2008. By November 2008, CBP 
and the USCG had signed a charter for the Joint Program Office. Within 
a few months thereafter, modification of an existing Predator B as the 
first prototype Guardian began and the completed aircraft was delivered 
to CBP in December 2009. The Guardian's primary enhancement was the 
addition of a SeaVue broad-area maritime search radar, common to the 
radars being flown on CBP's P-3 long-range tracker aircraft and the 
DHC-8 medium-range patrol aircraft. Other enhancements included 
electro-optical/infrared sensors with maritime haze filters, a 360-
degree maritime automatic information system (AIS), and an upgraded 
power subsystem with twice the output of a standard Predator B.
    The Guardian maritime UAS successfully completed operations test 
and evaluation in May 2010, and the early results indicate that it will 
provide DHS with an impressive capability for maritime surveillance and 
interdiction missions in the source and transit zones. The aircraft is 
currently deployed to Canaveral Air Force Station, Florida, and is an 
additional asset in use with the unified response command assisting 
with the BP Deepwater Horizon oil spill. Plans are in place for 
embarking on the first joint CBP/USCG mission in the Caribbean Sea 
later this summer. Eventually, the aircraft is expected to be deployed 
alongside the P-3 patrol aircraft, searching for bulk drug carriers, 
such as semi-submersible vessels and bulk drug submarines, in the 
Caribbean and eastern Pacific. Less than 1 year after the selection of 
a radar system, CBP introduced a unique, long-range maritime search 
asset to the DHS inventory, unmatched by any other capability on the 
world stage.
                              future plans
    When DHS approved the UAS Program as a component of CBP's Strategic 
Air and Marine Plan (StAMP), OAM was authorized to acquire up to 24 
complete systems. Consistent with the available resources, OAM has 
acquired seven aircraft, including five Predator B land configuration 
aircraft and two maritime Guardians. As previously stated, the fiscal 
year 2011 budget request includes funding for an eighth aircraft, also 
a Guardian. To support the aircraft, their command and control systems, 
operations personnel, maintenance and logistics, and other 
infrastructure, OAM established three launch, landing, and mission 
control sites (Sierra Vista, Arizona; Grand Forks, North Dakota; and 
Cape Canaveral, Florida), along with a mission operations site at the 
AMOC.
    To further bolster our southwest border security resources, CBP re-
deployed a ground control station from the AMOC to the Naval Air 
Station, Corpus Christi, Texas this month. Current plans call for 
occasional surge operations to Corpus Christi until sufficient 
aircraft, crew, ground support equipment, and operating funds become 
available, and a launch site agreement is reached with the U.S. Navy. 
Since the approval of the FAA COA for southern Texas and Corpus 
Christi, CBP has made steady progress on a basing agreement. With 
aircraft launched from both Sierra Vista, Arizona, and Corpus Christi, 
Texas, CBP can cover the full length of the 1,185 miles of airspace 
approved for homeland security operations by the FAA.
        enhancing uas performance for homeland security missions
    CBP UAS operations provide leading-edge capabilities to homeland 
security missions. No other CBP aircraft can provide persistent 
surveillance for over 20 hours in a single mission, respond to urgent 
calls from ground agents for unparalleled situational awareness, and 
host a variety of sensors to meet the evolving threat on the land and 
maritime borders.
    Over the past 3 years, CBP has established formal relationships 
with the Department of Defense (DOD) and its components to leverage 
capabilities developed for use overseas that may have applications to 
homeland security missions. The capabilities fall into three broad 
categories: Sensor systems; video and data capture and exploitation 
systems; and hardware support. Since OAM is an operating organization 
with minimal research and development staff or supporting test and 
evaluation infrastructure, it is logical and efficient to take 
advantage of technological advances by the DOD, industry, and other 
agencies.
    I would like to highlight three specific DOD capabilities that are 
being tested or adopted by CBP to enhance UAS performance for homeland 
security. The first would provide CBP with a radar capability with 
active, near-real-time vehicle and dismounted change detection, to 
support border ground operations, especially in areas subject to high 
levels of border violence. Once proven on the Predator, the capability 
could be distributed to other CBP surveillance aircraft. The second 
capability would provide enhanced signals direction-finding 
capabilities that could be used both over land and during coastal and 
long-range maritime operations. A third capability, funded by Congress 
in fiscal year 2010, will provide infrastructure for the timely 
exploitation of information and video from a variety of aviation 
platforms and sensors, beginning with the UAS and P-3 long-range patrol 
aircraft. Exploitation can be defined as the detailed analysis, 
interpretation, and distribution of information from many sources; 
eventually this will provide a Nation-wide capability to coordinate 
aviation mission assignments during broad border area campaigns and 
major events. Located at the AMOC, the first processing, exploitation, 
and dissemination cell is being patterned after similar capabilities 
employed by the U.S. Air Force and is expected to be operational before 
the end of this year.
                             the road ahead
    No aviation program, no matter how effective and efficient, is 
without challenges. The greatest near-term challenge faced by CBP's UAS 
Program is a shortage of pilots and sensor operators, specifically 
pilots certified to launch and land the aircraft. There is a 
significant amount of competition among the DOD, industry, and DHS to 
hire UAS pilots. Last year, Congress provided funds for 24 new pilots 
and though all were hired, only a few brought with them significant UAS 
experience. The rest are undergoing training that will take the better 
part of this year to complete. CBP does not plan to hire additional UAS 
pilots in fiscal year 2011, except to cover retirements, and therefore 
has begun to cross-train pilots and sensor operators from other high-
in-demand units, primarily those stationed at the CBP P-3 branch in 
Corpus Christi. Since CBP plans to operate Predators and Guardians from 
Corpus Christi, it is logical and efficient to share resources to the 
maximum extent possible.
    As previously mentioned, CBP continues to work very closely with 
the FAA on UAS access to the NAS, with the objective of eventually 
establishing long-term or permanent corridors through which CBP can 
routinely fly missions along the Nation's land and coastal borders, 
into the source and transit zones, and respond to emergency missions 
across the country. The relatively recent establishment of a UAS 
Executive Committee that includes DHS, FAA, DOD, and the National 
Aeronautics and Space Administration, will help to address Government-
wide NAS access needs. Since CBP has a homeland security mission in the 
NAS, the agency's COA requests will receive top priority by FAA.
                               conclusion
    Mr. Chairman and Members of the subcommittee, thank you for this 
opportunity to testify about the work of U.S. Customs and Border 
Protection, particularly in regard to the impressive capabilities that 
unmanned aircraft systems bring to our homeland security missions. Your 
continued support of CBP and the UAS program has led to significant 
improvements in the security of our borders and our Nation. I will be 
glad to answer any questions you may have.

    Mr. Cuellar. Thank you, General, for your testimony.
    At this time, we now recognize Admiral Atkins to summarize 
his statements for 5 minutes.

    STATEMENT OF VINCENT B. ATKINS, REAR ADMIRAL, ASSISTANT 
  COMMANDANT FOR CAPABILITY (CG-7), UNITED STATES COAST GUARD

    Adm. Atkins. Good morning, Mr. Chairman, Congresswoman 
Miller, Chairman Thompson, and distinguished Members of the 
subcommittee. As the Coast Guard assistant commandant for 
capabilities, I am honored to appear before you today to talk 
about the utility of unmanned aircraft systems to secure our 
maritime borders, as well as support the full range of Coast 
Guard missions to the benefit of U.S. economic and 
environmental security.
    With our unique combination of civil and military 
authorities, the Coast Guard serves as the Nation's principal 
maritime law enforcement authority and lead Federal agency for 
maritime homeland security. Our broad responsibilities extend 
from our inland waters to the Great Lakes to over 95,000 miles 
of coastline and into the high seas.
    In support of this security mission, the Coast Guard and 
other Government agencies employ a layered defense and depth 
strategy to prevent the entry of illicit contraband and people 
across a broad and asymmetric maritime border.
    In general terms, National security is a concerted effort 
to prevent attacks within the United States, reduce our 
Nation's vulnerability to terrorism, and to protect our 
resources and commerce. In the maritime environment, this not 
only includes our physical borders but the exclusive economic 
zone and also the approaches to these areas and in those areas 
between our ports of entry.
    To provide this security, it is imperative that the Coast 
Guard maintain a high degree of Maritime Domain Awareness, or 
MDA, across a vast and geographically diverse region. When 
integrated with our manned air and surface assets, the Coast 
Guard sees great promise for land and cutter-based UAS in 
support of maritime security.
    While the Coast Guard operates jointly with our partner 
agencies, we often perform as a sole entity typically due to 
our mission and/or geography. This is most apparent in long-
range counter-drug and counter-migrant operations from the 
Equatorial Pacific of Central and South America to the deep 
Caribbean.
    In terms of fisheries protection and enforcement 
operations, we operate from the far reaches of the Bering Sea 
along the Maritime Boundary Line to the Georges Bank in the 
North Atlantic. Also in the North Atlantic, the Coast Guard 
monitors and tracks ice movements, ensuring the safety of heavy 
commercial shipping.
    Closer to home, we protect our ports and waterways, shores, 
and living marine resources from foreign and domestic threats. 
Homeland security missions, both civil and military, benefit 
from improved maritime domain awareness, which in turn is 
improved by persistent surveillance provided by unmanned 
aircraft systems.
    To achieve this UAS capability, the Coast Guard is 
leveraging partnerships with Customs and Border Protection, the 
U.S. Navy, the Federal Aviation Administration, and other 
Federal UAS users. Our goal is to identify best practices, 
minimize risk to future UAS acquisition and operations, and to 
understand how to best integrate land and cutter-based UAS into 
our broad mission set.
    With CBP, the Coast Guard created a Joint Program Office, 
which has since facilitated the development, testing, and 
fielding of maritime version of the Predator, also known as the 
Guardian. Coast Guard pilots jointly operate the Guardian UAS 
and assist in developing tactics, techniques, and procedures 
for maritime UAS operations.
    We look for operational opportunities to understand how to 
leverage UAS maritime capabilities, including the support of 
the inter-agency response to Deepwater Horizon, and also in 
future counter-drug missions. We are working with the Navy on 
their Fire Scout program to better understand shipboard rotary-
wing UAS applications.
    Additionally, the Coast Guard is part of an inter-agency 
effort to safely integrate unmanned aircraft into the National 
airspace system. The Congressionally-mandated UAS Executive 
Committee is a highly active and collaborative effort and 
represents the best opportunity for successfully integrating 
unmanned aircraft into the NAS.
    Sir, the Coast Guard believes there is a real role for UAS 
in maritime security, and we appreciate this subcommittee's 
oversight and guidance as we move forward to realize these 
benefits.
    Thank you, and I stand ready to answer any questions you 
may have.
    [The statement of Admiral Atkins follows:]
                Prepared Statement of Vincent B. Atkins
                             July 15, 2010
    Good morning Mr. Chairman and distinguished Members of the 
subcommittee. I am honored to appear before you today to speak about 
the employment of unmanned aircraft systems (UAS) in support of the 
Coast Guard's mission to secure our borders.
    The Coast Guard is a military service and branch of the armed 
forces of the United States. We are also the only service in the Armed 
Forces with statutory law enforcement authority. Since our beginnings 
as the Revenue Cutter Service in 1790, the Coast Guard has seen 
tremendous expansion in our roles and responsibilities, continuing with 
the Homeland Security Act of 2002. The Coast Guard functions as the 
Nation's principal maritime law enforcement authority and lead Federal 
agency for maritime homeland security. The Coast Guard is also 
designated as lead agency for maritime drug interdiction under the 
National Drug Control Strategy, the lead agency for maritime and 
aeronautical search-and-rescue in coastal and international waters and 
airspace, and the co-lead agency with Customs and Border Protection's 
Office of Air and Marine (OAM) for air interdiction operations. Of 
these roles, many overlap with other agencies, while others fall solely 
within the purview of the Coast Guard.
    America's borders encompass over 95,000 miles of coastline. To 
secure America's borders, the Department of Homeland Security (DHS) and 
other Government agencies employ a comprehensive ``layered security'' 
strategy, which aims to provide security at and between U.S. ports of 
entry while simultaneously extending the zone of security beyond the 
physical border to include the Exclusive Economic Zone. These waters 
contain living and non-living marine resources that are of substantial 
economic value to our Nation.
    The layered security strategy depends on effective and efficient 
Maritime Domain Awareness (MDA), which refers to the persistent 
intelligence, surveillance, and reconnaissance of all vessels, cargo, 
aircraft, and people approaching and seeking entry into the United 
States, legally or illegally. Along with the Coast Guard's fleet of 
manned aircraft, UAS will provide required capability to monitor open 
seas and littoral waters providing additional data and imagery to 
maritime operational commanders and other users throughout the U.S. 
Government. The resulting improvement in MDA will support other Coast 
Guard's efforts to detect, monitor, track, and if necessary, interdict 
targets of interest. This capability will, in turn, increase the 
effectiveness of the Coast Guard and its partners in performing our 
core homeland security, defense, and law enforcement missions.
    As envisioned in the Deepwater Mission Needs Statement (MNS), UAS 
is critical to support many of the Coast Guard's missions (e.g., Search 
and Rescue; Drug Interdiction; Alien Migrant Interdiction; Living 
Marine Resources; Other Law Enforcement; Defense Readiness; and Ports, 
Waterways, and Coastal Security) in direct support of the 2010 
Quadrennial Homeland Security Review Report.
    For example, these capabilities would augment surveillance efforts 
currently provided by manned Maritime Patrol Aircraft. Sensor data 
would be made available to Coast Guard and other Government agency 
command and control units, tactical units, and exploitation sites.
    To achieve a well-balanced capability, the Coast Guard's UAS 
strategy is three-fold:
  <bullet> Evaluate existing cutter-based and mid-altitude, land-based 
        UAS options and leverage existing Department of Defense and CBP 
        acquisition products;
  <bullet> Exploit information available from U.S. Navy High Altitude 
        Long Endurance (HALE) platforms; and
  <bullet> Develop knowledge and experience through partnerships within 
        DHS and the Department of Defense.
    This strategy will be used to safely and pragmatically guide the 
implementation of a UAS solution.
    In February 2009, the Department of Homeland Security approved the 
Coast Guard's strategy to acquire mid-altitude long-range and low-
altitude cutter-based tactical UAS's to meet mission requirements. The 
strategy also emphasizes commonality with existing DHS and Department 
of Defense (DoD) programs that are already technologically and 
production mature. This approach will streamline the Advanced Concept 
Technology Demonstrations and the development of UAS Mission Needs 
Statements and Capability Development Plans already underway.
    The Coast Guard is proactively leveraging partnerships with CBP, 
the Department of Defense, and the Federal Aviation Administration 
(FAA) to explore the abilities of UAS to contribute to Coast Guard 
mission sets. To this end, the Coast Guard significantly enhanced 
collaboration with CBP by establishing a Joint Program Office with four 
officer billets in 2009. At the same time, the Coast Guard created 
senior officer liaison billets with the Navy and the FAA.
    In cooperation with CBP, the Joint Program Office has provided 
significant expertise in maritime surveillance, sensors and data 
management capabilities, resulting in the development and fielding of 
the Guardian UAS, an offshore version of the land-based Predator UAS. 
In addition, the Joint Program Office assisted in securing facilities 
to support Guardian test activities and routine flight operations.
    The Joint Program Office's efforts also enabled three Coast Guard 
aviators and one sensor operator to receive Predator training at CBP 
facilities. Upon completion of the training, Coast Guard personnel 
operate the Guardian UAS and assist CBP in developing tactics, 
techniques, and procedures for UAS operations in the maritime 
environment. This mutually beneficial relationship provides a valuable 
resource for both agencies, as it enables the Coast Guard to develop 
critical UAS skill sets within the service, and provides manpower and 
maritime expertise to CBP, permitting expanded and flexible flight 
operations in domestic and international waters.
    A recent example of the benefits of this cooperative effort was the 
Coast Guard's request to employ the Guardian UAS in response to the 
Deepwater Horizon oil spill. Pilots from both agencies have employed 
UAS to map the spill, locate and track responding surface assets, and 
transmit imagery to supporting command centers, efforts which enabled 
the Coast Guard to evaluate the UAS's ability to support large-area 
surge operations.
    In addition, the Coast Guard is observing other new technologies in 
existing systems that can support a wide variety of missions in the 
maritime. Over the last year, the Coast Guard has been monitoring the 
Heron I UAS in routine exercises sponsored by U.S. Southern Command, 
including the joint development of test and mission plans, as well as 
observation of flight operations in Central America and command and 
control activities in the United States. Data gathered in these efforts 
will be invaluable in acquiring and operating a UAS capable of meeting 
the Coast Guard's mission needs.
    The Coast Guard's mission also requires a cutter-based, rotary-wing 
UAS program which will provide a tactical enforcement tool to extend 
the range and capability of our new cutter fleets. Our partnership with 
the Department of Defense has ensured that we maintain the expertise to 
develop a robust cutter-based program, enabling one Coast Guard aviator 
to qualify on the Navy's Fire Scout UAS, and two other aviation 
personnel to observe Fire Scout operations and maintenance aboard the 
USS McInerney. The Coast Guard's close relationship with the U.S. Navy 
in this effort led to the option of installing a sea search radar 
aboard Fire Scout. Although this was not originally included in the 
Navy's payload requirements, it is critical for Coast Guard missions 
and provides a more robust and capable surveillance capability. Having 
completed a ``dry fit'' of the Fire Scout aboard the NSC Bertholf in 
2008, engineering and design plans have been completed to support a 
Fire Scout technical demonstration aboard the NSC in fiscal year 2011.
                               conclusion
    Since its inception, Coast Guard aviation has been at the leading 
edge of applying new technologies to efficiently accomplish our many 
responsibilities. It is our unique authorities, capabilities, 
competencies, and partnerships, both foreign and domestic that enable 
the Coast Guard, in partnership with our fellow DHS components and the 
other branches of the armed forces, to consistently and effectively 
provide maritime security. In the context of the U.S. layered security 
strategy for the maritime domain, the introduction of UAS would extend 
the reach of Coast Guard's ability to protect America's maritime 
borders.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer your questions.

    Mr. Cuellar. Thank you very much for your testimony.
    At this time, I would like to recognize Ms. Kalinowski to 
summarize her statement for 5 minutes on behalf of herself and 
Mr. Allen.

     STATEMENT OF NANCY KALINOWSKI, VICE PRESIDENT, SYSTEM 
OPERATIONS SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
ADMINISTRATION; ACCOMPANIED BY JOHN M. ALLEN, DIRECTOR, FLIGHT 
       STANDARDS SERVICE, FEDERAL AVIATION ADMINISTRATION

    Ms. Kalinowski. Thank you very much, Chairman Cuellar, 
Congresswoman Miller, and distinguished Members of the 
committee. The FAA appreciates the invitation to come speak to 
you today in support of both our missions, the FAA, CBP, and 
Coast Guard.
    The FAA sets the parameters for where an unmanned aircraft 
system may be operated and how these operations may be 
conducted safely in the National airspace system. Our main 
focus when evaluating UAS operations in the National airspace 
system is to avoid any situations in which an unmanned aircraft 
would endanger other users of the NAS or compromise the safety 
of persons and property on the ground, as Mrs. Miller said.
    The FAA recognizes the great potential of unmanned aircraft 
in National defense and homeland security and, as such, we 
strive to accommodate the DOD and the DHS's needs for UAS 
operations. But we must do so without jeopardizing the safety 
of the National airspace system.
    Currently, if a Government agency or a public university or 
a State or local law enforcement organization wishes to fly an 
unmanned aircraft system in the civil airspace, the FAA may 
grant a certificate of waiver or authorization, commonly 
referred to as a COA. The proponent applies to the FAA for a 
COA, detailing what and how they intend to fly the UAS in the 
airspace. The FAA works with the proponent to mitigate any 
risks that flying the UAS in the civil airspace may present. 
Risk mitigations frequently include special provisions unique 
to the requested type of the operation.
    For example, the applicant may be restricted to a defined 
airspace or restricted to operating during certain times of the 
day. The UAS may be required to have a transponder or, if it is 
expected to be flown in a certain type of airspace, a ground 
observer or an accompanying chase aircraft may be required to 
be the eyes of the UAS.
    Other safety enhancements may be required, also depending 
on the nature of the proposed operations. I have more 
information later on about the COA process, which I can go into 
detail if the committee wishes.
    As noted by Congressman Thompson, we have recognized the 
need to streamline our process for evaluating COA applications. 
To address the timeliness concerns of the applications, the FAA 
is working to simplify the COA process and has also increased 
the staffing levels by more than a dozen people.
    The FAA's working better to standardize the review process 
and to increase communication and transparency between our 
partner agencies and the applicants. We take this process very 
seriously, and while we are taking specific steps to improve 
the COA process, we are always going to take the time we need 
to ensure that these operations can be conducted safely in the 
NAS.
    These efforts are already showing improvements. In 2009, we 
issued 146 COAs, but so far this year we have issued 122 COAs 
in the first 6 months, and we are on track to issue over 200 
this year.
    At the current time, we have over 268 active certificates 
of authorization on 133 different aircraft types. They have 
been issued to 151 different proponents. The CBP currently has 
11 COAs issued to them.
    Normally, the COAs are worked on a first-come, first-serve 
basis. However, if an agency such as Customs and Border 
Protection has a priority mission request, it receives priority 
consideration from the FAA. As General Kostelnik discussed, we 
also recognize that there are emergency and disaster situations 
where the use of UASs can save lives and help our first 
responders.
    To address these situations, we do have special disaster 
COAs and emergency COAs that can be issued in a matter of hours 
or even minutes, and we have responded to the CBP in this 
manner.
    We are also working with our partners in Government and the 
private sector to advance the development of UASs and their 
ultimate integration into the NAS.
    First, in accordance with 2009 Defense Reauthorizations, 
the DOD and FAA have formed the Executive Committee that 
Admiral Atkins just referred to, the ExCom, to focus on 
conflict resolution and identification of range policies, 
technical issues, and procedural concerns rising from the 
integration into the NAS. We have also included the Department 
of Homeland Security and NASA to more capture broadly the other 
Federal agency concerns and missions.
    The focus of this U.S. Com is to enable an increase, and 
then ultimately a routine access of Federal public UAS 
operations into the NAS to support all of our missions. We 
thank the Congress for enabling the formation of the ExCom to 
advance the work of UAS integration.
    Unmanned aircrafts are a promising new technology, but one 
that was originally and primarily designed for military 
purposes to support the war fighter. Although the technology 
incorporated into UASs has advanced, their safety record 
warrants careful review.
    We are trying to integrate the aircraft into the NAS, but 
we need to continue to take a very hard look at the risks that 
UASs pose to the aviation community and the traveling public, 
as well as the risk to persons or property on the ground.
    We seek to balance our partner agencies' security, defense, 
and other public needs with the safety of the National airspace 
system. We will not compromise the safety of the National 
airspace system.
    We look forward to continuing to work with our partners, 
and we thank you, the Congress, and especially this committee, 
for the guidance that you have given us, the support that you 
personally, Chairman Cuellar, and your committee have provided 
to the Customs and Border Protection and the Coast Guard 
missions to further enable this partnership.
    Thank you.
    [The joint statement of Ms. Kalinowski and Mr. Allen 
follows:]
      Joint Prepared Statement of Nancy Kalinowski and John Allen
                             July 15, 2010
    Chairman Cuellar, Congresswoman Miller, Members of the 
subcommittee: Thank you for inviting the Federal Aviation 
Administration (FAA) to this hearing. We are Nancy Kalinowski, Vice 
President of System Operations Services in the Air Traffic Organization 
(ATO), and John Allen, Director of the Flight Standards Service in the 
Office of Aviation Safety at the FAA. Together, we have distinct yet 
related duties in carrying out the FAA's mission to ensure the safety 
and efficiency of the National Airspace System (NAS). Mr. Allen's 
organization is charged with setting and enforcing the safety standards 
for air operators and airmen. Ms. Kalinowski's role is to provide 
overall guidance for air traffic procedures and airspace issues and her 
office is the focal point for daily ATO interface with the Department 
of Defense (DoD) and the Department of Homeland Security (DHS) 
regarding air transportation security issues.
    As the most complex airspace in the world, the NAS encompasses an 
average of over 100,000 aviation operations per day, including 
commercial air traffic, cargo operations, business jets, etc. 
Additionally, there are over 238,000 general aviation aircraft that 
represent a wide range of sophistication and capabilities that may 
enter the system at any time. There are over 500 air traffic control 
facilities, more than 12,000 air navigation facilities, and over 19,000 
airports, not to mention the thousands of other communications, 
surveillance, weather reporting, and other aviation support facilities. 
With this volume of traffic and high degree of complexity, through 
diligent oversight, the FAA maintains an extremely safe airspace.
    With regard to unmanned aircraft systems (UAS), we--the FAA--set 
the parameters for where a UAS may be operated and how those operations 
may be conducted safely in the NAS. Our main focus when evaluating UAS 
operations in the NAS is to avoid any situations in which a UAS would 
endanger other users of the NAS or compromise the safety of persons or 
property on the ground. The FAA recognizes the great potential of UASs 
in National defense and homeland security, and as such, we strive to 
accommodate the DoD and DHS' needs for UAS operations, but we must do 
so without jeopardizing safety. Because airspace is a finite resource, 
to help mitigate risk, FAA sets aside airspace for an operator's 
exclusive use when needed. These exclusive use areas are known as 
Restricted or Prohibited Areas. The DoD conducts most of its training 
in such airspace. Along the southern border of the country, the DoD has 
elected to share that restricted airspace with Customs and Border 
Protection (CBP). However, the CBP also operates UASs in civil 
airspace, as discussed below.
    When new aviation technology becomes available, we must first 
determine whether the technology itself is safe and whether it can be 
operated safely. Whether the technology is to be used by pilots or air 
traffic controllers, we determine the risks associated with putting 
that technology into the NAS. Once we address and mitigate those risks, 
we move forward with integration in stages, assessing safety at each 
incremental step along the way. Unforeseen developments, changing 
needs, technological improvements, and human factors all play a role in 
whether the new technology is safe enough to be permitted into the 
system.
    The FAA is using this same methodology to manage the integration of 
the new UAS technology into the NAS. While many view UASs as a 
promising new technology, the limited safety and operational data 
available does not support expedited or full integration into the NAS. 
For example, some of the data that we do have comes from the CBP, and 
while we have reason to believe that the safety data that we do have 
may not be a representative sampling of UAS operations, it is all we 
have. To the extent that this limited data from CBP are representative, 
they suggest that accident rates for UASs are higher than in general 
aviation and may be more than an order of magnitude higher than in 
commercial aviation.
    For example, from fiscal year 2006 to fiscal year-to-date 2010 
(July 13, 2010), CBP reports a total of 5,688 flight hours. The CBP 
accident rate is 52.7 accidents per 100,000 flight hours (the standard 
safety data normalization factor/the standard on which safety data is 
reported). This accident rate is more than seven times the general 
aviation accident rate (7.11 accidents/100,000 flight hours) and 353 
times the commercial aviation accident rate (0.149 accidents/100,000 
flight hours).
    While the CBP accident rate appears to be higher than general or 
commercial aviation, we note that CBP's total reported flight hours of 
5,688 are very small in comparison to the 100,000 hour standard 
typically used to reflect aviation safety data and accident rates. CBP 
has had seven deviations (where the aircraft has done something 
unplanned or unexpected and violates an airspace regulation) so far 
this fiscal year in over 1,300 hours of flight time, as compared to the 
five deviations in 1,127 hours of flight time in fiscal year 2009. 
Continuing review of UAS operations will enhance FAA's ability to 
assess the safety to improve on-going use of this technology.
    This is the crux of the FAA's responsibility. More data is needed 
before an informed decision to fully integrate UASs into the NAS can be 
made. Because of this, the FAA must make conservative decisions with 
respect to UAS NAS integration. Until such time as the data can support 
an informed decision to integrate UASs in the NAS--where the public 
travels every day--in accordance with our safety mandate, the FAA must 
continue to move forward deliberately and cautiously.
    For UASs to gain access to the civil airspace, the FAA has a 
Certificate of Waiver or Authorization (COA) process. This is the 
avenue by which public users (Government agencies, including Federal, 
State, and local law enforcement, as well as State universities) that 
wish to fly a UAS can gain access to the NAS, provided that the risks 
of flying the unmanned aircraft in the civil airspace can be 
appropriately mitigated. Civil UAS operators must apply for a Special 
Airworthiness Certificate--Experimental Category to gain access to the 
NAS. This avenue allows the civil user to operate the UAS for research 
and development, demonstrations, and crew training. The Special 
Airworthiness Certificate does not permit carrying persons or property 
for compensation or hire. Commercial UAS operations in the United 
States are not permitted at this time.
    Risk mitigations required to grant a COA frequently include special 
provisions unique to the requested type of operation. For example, the 
applicant may be restricted to a defined airspace and/or operating 
during certain times of the day. The UAS may be required to have a 
transponder if it is to be flown in a certain type of airspace. A 
ground observer or accompanying ``chase'' aircraft may be required to 
act as the ``eyes'' of the UAS. Other safety enhancements may be 
required, depending on the nature of the proposed operation.
    To apply for a COA, public entities may submit an application on-
line with the FAA. The FAA then evaluates the request. Internally, ATO 
first examines the application for feasibility--airspace experts review 
and ensure the operation will not severely impact the efficiency of the 
NAS. The application is then sent to Flight Standards to evaluate the 
operational concept, the airworthiness release of the aircraft, the 
pilot/crew qualifications, and the policies and procedures used by the 
operator. From that in-depth evaluation, special provisions are 
written. These internal FAA offices then confer together to address any 
remaining concerns and harmonize the provisions needed to ensure the 
safe operation of the UAS. Once these steps have taken place, the COA 
is signed and given to the applicant.
    We have recognized the need to streamline our process for 
evaluating COA applications. To address the timeliness concerns of 
applicants, the FAA is working to simplify the COA process and has also 
increased staffing levels by more than a dozen people. The FAA is 
working to better standardize the review process and increase 
communication and transparency between the agency and the applicants. 
We take this process seriously and while we are taking specific steps 
to improve the COA application process, we will always take the time 
needed to ensure these operations can be conducted safely.
    These efforts are already showing improvements. In 2009, we issued 
146 COAs. So far this year, we have issued 122 COAs, and we are on 
track to issue over 200 this year. At the current time, we have 268 
active COAs on 133 different aircraft types, issued to 151 proponents. 
CBP currently has 11 COAs issued to them.
    Normally, COAs are worked on a first-come, first-served basis. 
However, given that there are emergency and disaster situations where 
the use of UASs has saved lives and otherwise mitigated emergency 
situations, the FAA has issued three special disaster COAs, one to CBP 
and two to the DoD. Both agencies have requested COAs using the special 
process, and most disaster COAs have been issued before either agency 
had the aircraft and personnel in place to fly the mission. In 
addition, there is a second type of special ``emergency'' COA. 
Emergency COAs have been used to help with California wildfires, the 
Deepwater oil spill, and special law enforcement missions. These have 
been issued in minutes or hours, not days and weeks. The FAA has issued 
three disaster COAs and 16 emergency COAs to CBP for its use.
    These are only a few of the many improvements that the FAA is 
implementing to address the concerns with the COA application process. 
In the mean time, we are working with our partners in Government and 
the private sector to advance the development of UAS and the ultimate 
integration into the NAS. First, in accordance with Section 1036 of the 
Duncan Hunter National Defense Authorization Act (NDAA) for fiscal year 
2009, Public Law 110-417, the DoD and FAA have formed an Executive 
Committee (ExCom) to focus on conflict resolution and identification of 
the range of policy, technical, and procedural concerns arising from 
the integration of UASs into the NAS. Other ExCom members include DHS 
and the National Aeronautics and Space Administration (NASA) to capture 
more broadly other Federal agency efforts and equities in the ExCom. 
The mission of this multi-agency UAS ExCom is to enable increased, and 
ultimately routine, access of Federal public UAS operations into the 
NAS to support the operational, training, developmental, and research 
requirements of the FAA, DoD, DHS, and NASA. All of these partner 
agencies are working to ensure that each department and agency is 
putting the proper focus and resources to continue to lead the world in 
the integration of UAS. We thank the Congress for enabling the 
formation of the ExCom to advance the work of UAS integration into the 
NAS and streamline the COA process.
    The FAA expects small UASs to experience the greatest near-term 
growth in civil and commercial operations because of their versatility 
and relatively low initial cost and operating expenses. The agency has 
received extensive public comment on small UASs, both from proponents 
who feel their size dictates minimal regulation and from groups 
concerned about the hazards that UAS pose to piloted aircraft as well 
as persons and property on the ground.
    In April 2008, the FAA chartered an Aviation Rulemaking Committee 
(ARC) to examine these operational and safety issues and make 
recommendations on how to proceed with regulating small UASs. The 
agency has received the ARC's recommendations, and is drafting a 
proposed rule. Ensuring the safety of all airspace users while not 
putting undue burdens on small UAS operators is a challenging task; the 
FAA hopes to publish the proposed rule by mid-2011.
    Additionally, the FAA has asked RTCA--an internationally recognized 
standards organization that frequently advises the agency on technical 
issues--to work with the FAA and industry and develop UAS standards. 
RTCA will answer two key questions:
    1. How will UASs handle the challenges of communication, command, 
        and control? and
    2. How will UASs ``sense and avoid'' other aircraft?
    These activities are targeted for completion before 2015.
    As the FAA moves forward with improving the processes for 
integrating UAS into the NAS, we want to acknowledge and thank our 
partner agencies from DHS in helping to keep our skies safe. CBP, in 
cooperation with the FAA, conducted a comprehensive training session 
for all of their UAS pilots and sensor operators just last month. The 
16-hour CBP training safety meeting was conducted June 14 and 15 with 
classroom training, as well as guided discussion periods involving 
pilots and sensor operators from CBP. This approach to safety provided 
the two agencies with an environment to share knowledge and experience 
and forged a partnership that takes into account both the security of 
the homeland as well as the safety of our airspace. We look forward to 
continuing that partnership with the CBP, as well as the other Federal 
agencies, as UAS technology matures.
    Unmanned aircraft systems are a promising new technology, but one 
that was originally and primarily designed for military purposes. 
Although the technology incorporated into UASs has advanced, their 
safety record warrants careful review. Now, as we attempt to integrate 
these aircraft into the NAS, we need to take a hard look at the risk 
that UASs pose to the traveling public as well as the risk to persons 
or property on the ground. As the agency charged with overseeing the 
safety of our skies, the FAA seeks to balance our partner agencies' 
security, defense, and other public needs with the safety of the NAS. 
We look forward to continuing our work with our partners and the 
Congress to do just that.
    Chairman Cuellar, Congresswoman Miller, Members of the 
subcommittee, this concludes our prepared remarks. We would be pleased 
to answer any questions you might have.

    Mr. Cuellar. Thank you again very much. Again, to all the 
witnesses, thank you for being here with us.
    I would like to remind each Member that he or she will have 
5 minutes to question the witnesses, and I now recognize myself 
for questions.
    General, let me go ahead and ask you this particular 
question. Give me the overall vision of what the UAVs will be 
as part of the border security. In other words, summarize what 
we were talking about yesterday. What does that mean for the 
southern border? What does that mean for the northern border? 
What does that mean for the coastal area when we talk about the 
UAV program?
    Gen. Kostelnik. Thank you, sir.
    Our program is a growing and a planned program. For the 
last several years, each year we have provided the Congress a 
formal strategic vision, a strategic plan for where we are 
going.
    In my view, our UAS program has always been a part of the 
more comprehensive secure border initiative program. Well, 
mostly that has been associated with the fans and ground-based 
radars. The UAVs have always been the virtual air piece.
    We have purposely laid down our infrastructure where the 
Air National Guard infrastructure is, where they are flying the 
wartime Predator missions overseas, our AMOC in Riverside, 
California; North Dakota, the Hooligans up there fly Predators 
overseas. We are going into NAS Corpus Christi. We are going 
into Syracuse for our maintenance facility. They fly Predators 
overseas.
    Our focus is to provide the air picture in concert with our 
manned aviation and our ground-based technology and aviation 
systems to provide a complete border security net. Not that 
whatever be every piece 24/7, but providing the right type of 
manned or unmanned capability at the right time, at the right 
place, you know, to provide the security, you know, that that 
is needed.
    We have targeted our lay-down into places like Sierra 
Vista, given the focus on the Southwest border, or into North 
Dakota, given the focus on the northern border in concert with 
the five manned aviation branches we have stood up in the last 
5 years. We have deployed and explored operations out of New 
York State.
    We are now going in with your help into Corpus Christi. 
That will be the next base that we stand up. We are over at the 
Cape. So we are starting to lay down, and as through our 
program, we lay down other sites.
    There will be other additional sites on the northern border 
such that, when we reach the end game of our complete lay-down, 
not only will we have the capability to do daily and routine 
border security ops, supporting immigration, narcotics 
interdiction and terrorists, you know, activities, but also 
with those lay-downs, we are uniquely placed to respond to 
contingencies of all kinds, natural ones like the floods in the 
north and the hurricanes in the south, environmental ones like 
the Deepwater Horizon event.
    But most importantly, I believe this capability--and Ms. 
Kalinowski was right. I mean, this is based on wartime 
capability, but these things have found so much use overseas, 
why wouldn't we use the same technology to protect ourselves in 
the homeland that we apply overseas to do that mission there?
    Increasingly, with the Uganda event, Mumbai not too long 
ago, you know, it is clear that, you know, the world is 
increasingly an unsafe place, and one needs to be prepared for 
the unexpected. Now, UASs are not a panacea. They don't do 
anything themselves. They must work in conjunction with manned 
assets.
    But if you look honestly at the technology, this single 
aircraft can do things none of the other aircraft in the 
Department of Homeland Security can do in a package. I think 
those kind of capabilities, you know, kind of set the stage.
    We are early on in that maturation process. We are clearly 
still growing. We are clearly still learning. The technology is 
well in advance of the National policy and the vision for 
National use, but that will come with your help and your 
leadership in a measured way.
    But the difficult things, the technologies that we should 
be implying, we are getting very good at. I would offer that, 
while these things are not without their risks, we actually do 
have a good safety record for this aircraft in this homeland in 
the way we fly it with our efforts. So that is our way ahead.
    Mr. Cuellar. Of course, on the safety issue, do everything 
possible, I know the FAA is in charge of that. But again, make 
sure there is no linkage losses and all that, just do 
everything possible to make sure we provide that safety. 
Because especially some of those drones will be flying over 
populated areas, and we certainly want to make sure that we do 
everything possible on that.
    The other point that I want to mention, I got a note from 
the Texas Sheriffs association that was asking, General, as you 
provide that real-time information--and I assume it goes 
directly to Border Patrol. Is that correct?
    Gen. Kostelnik. It is actually a wide variety of users. 
Some of it could go to any one of our intel functions. We can 
stream the video sometimes to some of the DOD components in 
concert with other missions. Once it goes to the Air and Marine 
Operational Center in Riverside, it can be distributed to users 
anywhere in the country.
    In fact, we can stream our information across the ordinary 
internet channels with very low levels of encryption because, 
really, most of the images there is not a lot to be concerned 
with. So if I had an aircraft flying today and we were wired to 
the internet, I could show you live video from one of our 
aircraft today.
    While it might be not the resolution you want on a TV 
monitor, it gives leadership wherever you have, whether it is 
here in the country or out in the field at a command and 
control infrastructure at emergency management response, you 
know, unbelievable situational awareness about what is going on 
real-time.
    When we flew the hurricanes 2 years ago, we were feeding 
that image not only to FEMA sites across the country but to 
headquarter sites at DHS and CBP. You could see real-time as a 
Predator flew by an oil derrick whether there was a leak in 
that derrick or not. That kind of information is priceless in 
the sense of commercials.
    Mr. Cuellar. Right. But the intent is to work with our 
other partners, State and local, depending on the situation 
whether you use a fusion center or whatever the case might be, 
but there is an intent to work with our local folks, is that 
correct, local and State?
    Gen. Kostelnik. Yes, sir. As a matter of policy, U.S. 
Customs and Border Protection aviation and maritime law 
enforcement assets not only support CBP Border Patrol FO 
missions, all Department of Homeland Security missions, but 
outside agencies, including DEA, FBI, and others. We are there. 
Once we are in a locale, you know, that asset supports all 
State and local contingencies.
    Mr. Cuellar. Okay.
    Gen. Kostelnik. All environmental contingencies of any 
type.
    Mr. Cuellar. Okay, thank you very much.
    At this time, I now recognize the Ranking Member of the 
subcommittee, gentlelady from Michigan, for questions.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    General, I noticed in your testimony you were talking about 
the CBP suffering from the pilot shortage. Maybe you could 
flesh that out a bit for me, because you were saying that the 
Congress has funded 24 pilot positions, but I think we actually 
funded 144, is what my notes are saying here.
    Also, I am interested in how you train a pilot to do 
something like that? Is there anything that the subcommittee 
can do to help you with making sure you have adequate amounts 
of pilots and the resources that you need to train these 
individuals?
    Gen. Kostelnik. Well, the 24 pilots that were provided in 
the 2009 budget, those have been hired. They are in the process 
of being trained. The 144 number was the plus-up we were 
looking at in 2010, which for internal budget reasons, we did 
not get. All of those would not have been UAV pilots, but a 
large part of those numbers were----
    Mrs. Miller. So not to interrupt, but that was an internal 
decision----
    Gen. Kostelnik. Right.
    Mrs. Miller [continuing]. Not to fund those.
    Gen. Kostelnik. Right.
    Mrs. Miller. So the resources were shifted somewhere else 
internally.
    Gen. Kostelnik. Well, it was a matter of the budget issues 
associated with the 2011 budget and the changes we had to make 
which would not be recurring in 2010 to get there. We did get, 
of that 144, about 24 slots, and some of those will go into UAV 
pilots.
    Now, in terms of training, this is probably the biggest 
bottleneck, you know, across the spectrum of users. Not only 
are we having issues, the United States Air Force is having 
users as Secretary Gates is trying to grow the number of CAPs 
they have overseas.
    It is interesting, because it is all about unmanned things, 
but the reality is that UAVs are manpower-intensive, 
especially, you know, the remotely piloted ones like the 
Predator because--the other pilots and sensor operators----
    Mrs. Miller. Right.
    Gen. Kostelnik [continuing]. Intel kind of things. So, you 
know, very manpower-intensive.
    In terms of training, the first aircraft, as you recall, we 
lost in 2006, one of the early prototypes of the Predator B 
pilot air, had nothing to do with the UAV. Perfectly good 
airplane.
    Mrs. Miller. You lost contact with that aircraft, right?
    Gen. Kostelnik. The pilot cut off the engine. No, we never 
lost contact with that airplane. That was a contractor pilot 
being trained inappropriately on a contract flight who cut off 
the engine. There was a momentary loss link that switched to 
the second control, which is the normal procedure in a 
Predator.
    The second set of flight controls were supposed to be in an 
operate mode. They were in cutoff mode. The guy was poorly 
trained, cut off the engine, didn't realize it. The airplane 
continue to do what it was supposed to do until it hit the 
ground. I mean, that was a problem on its own.
    Since that time, we have aggressively, with the help and 
support initially through the United States Air Force, and now 
with our own resources, we grow and train our own resources. We 
have more than 40 air marine pilots, dual-qualified, FA-
certified, flying manned fixed-wing or rotary-wing aircraft and 
Predator Bs as part of our infrastructure. We have a small 
cadre of launch and recovery pilots, and we are growing that 
program. There is no quick fix for that. It takes time. It 
takes time.
    Mrs. Miller. Okay. Not to cut you off, but I have a limited 
amount of time here.
    I did appreciate your narration of the video and taking the 
predator to Oshkosh. I don't know if you plan on doing that 
when they have Oshkosh in 2 weeks, but with all of the activity 
that is going on there, I think it is very important and great 
that you get the buy-in of the general aviation community 
through the EAA, et cetera.
    The FAA I think can also hear wonderful input from people 
who are utilizing the airspace in so many different ways if 
they feel comfortable with these drones being out there. I 
think that is a critical component of us, going forward, making 
sure.
    I would just also want to mention, Mr. Chairman, and for 
the committee as well, I think as a Congress and as a Nation, 
we need to think always about utilizing, as I say, off-the-
shelf hardware like the drones that the taxpayers have already 
paid for that are being very successfully utilized in theater, 
in conflict, and how we meld those into homeland security as 
well.
    I think we missed a big opportunity during the last BRAC. 
Quite frankly--they weren't thinking about it--because we were 
talking about military facilities around the Nation and maybe 
using Stryker brigades and how those could be utilized by the 
National Guard for homeland security.
    Same thing with UAVs, how they could be utilized and how we 
really meld the DOD and the Department of Homeland Security 
together in facilities around the Nation, the ability to--as 
the general was just saying, you are doing these overlays at 
Air National Guards all over. I don't know if you are going to 
do that down at the Cape. Are you putting that at Patrick?
    Gen. Kostelnik. It is actually at Cape Canaveral Air Force 
Station.
    Mrs. Miller. Okay. So I don't know if there is Air National 
wing at Patrick, but it would be great to have a ground station 
there for what is happening with the Deepwater Horizon, et 
cetera, in the Gulf.
    So I just think, just generally want to--I think this 
committee can be helpful in talking to the entire Congress--we 
are going to have another BRAC at some point--of how we utilize 
all of these various resources.
    The first and foremost responsibility of the Federal 
Government, which is to provide for the common defense, that is 
in the preamble of the Constitution. All these other issues are 
important, but nothing more important than National defense, 
homeland security. I think if we can utilize some of these--
anyway, I am a huge supporter.
    I know I am out of time. If I could just ask one other 
question quickly. What is the reaction of your Canadian 
counterparts to the UAVs, and even some of the aerostats or 
other kinds of technology that you are utilizing there? You 
know, they are very concerned about the thickening of the 
border. They are very concerned that we are over-reacting to 
this threat sometimes. They are our greatest neighbor and ally, 
and we always have to be sensitive to that.
    Thank you. General.
    Gen. Kostelnik. Should I respond to that?
    Mrs. Miller. Thank you. I appreciate that.
    Gen. Kostelnik. When we stood up North Dakota, we took the 
UAVs up there. That was the first northern border deployment. 
Of course, we had a very strong presence, the Canadian Border 
Security and the RCMP. Of course, behind the scenes, we have 
great partnerships with our law enforcement and security forces 
up north. I mean, went through the iVet process and iBid 
process. There is a lot going on.
    On the aviation side, when we stood that up, that is the 
question that you get from mostly the media. The law 
enforcement types get it, but the Canadian media says, ``Well, 
why are you militarizing the border?'' You know, why are you 
bringing these planes up here?
    But the reality is, you know, border security serves 
everybody well on both sides of the border, because the kind of 
things, the places we are flying, the things we are looking at, 
the things we are going after, the people who are in those 
areas are only up to no good. It really serves the vast 
majority of the American-Canadian public well to have a secure 
force.
    Oh, by the way, I remind them, you know, when we put this 
aircraft here, it is there to support contingencies. It wasn't 
3 months after we stood up North Dakota that we had that 
flood--and North Dakota, you may realize that the waters run 
north--and the Canadian government was on the edge of asking us 
to fly the Predator into Canadian airspace to help them with 
their flood support.
    So the reality is--and this is important to the American 
public, because once we put these aircraft in place, South 
Texas, when we get down to Corpus Christi, that will be new. I 
get a lot of questions from San Antonio and Corpus. I mean, 
that is my home town. But the reality is, when the airplane is 
there, we won't have to sortie an airplane down there to do 
response to hurricanes.
    If there are tornados in other parts of the country that 
need response, we won't have to deploy aircraft from halfway 
across the country to get there. This airplane, with the EO, 
with the IR, with the laser designator, you can find people 
lost in the wilderness. You can find warm bodies in cold water. 
You can relay that information to man recovery and response 
assets. It just brings more Federal capability to State and 
locals that they would never have.
    I mean, if you were a local law enforcement type, your 
question in south Texas, wouldn't you like the same capability 
that the special operator war fighters have overseas in your 
hometown towards your mission? Once we are there, we support 
them as a priority.
    Mr. Cuellar. Okay. Thank you.
    Thank you to the Ranking Member.
    At this time, Members, we do have one vote, so I am going 
to ask the Chairman to go ahead and do the question, then we 
will rush off and then come right back because that is only 
just one vote. So as Members, you know the rules, recognize 
other Members for questions according to committee rules 
procedure. We will go with the start of the seniority, who we 
have got here first.
    But at this time, we will go ahead and recognize the 
Chairman of the full committee for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Cuellar.
    Ms. Kolinowski--yes, okay, all right. I am sure you have 
been called better or worse, you know, just according.
    Your prepared testimony states that data does not support 
expedited or full integration of UASs. You further go on to say 
that the limited data you have suggests that accidents rate 
could potentially be higher. Your information is concerning. 
Can you explain that?
    Ms. Kalinowski. Yes, I can, sir. We have enjoyed a very 
positive working partnership with Customs and Border Protection 
in this past year, and they have been very forthcoming with 
their information and their data on their operations in the 
civilian NAS.
    We still need to understand and receive more data from our 
partners in the Department of Defense in order to fully 
understand all the safety challenges that we have with these 
unmanned aircraft systems.
    Mr. Thompson. Excuse me, what kind of information from DOD 
are you lacking?
    Ms. Kalinowski. Mr. Allen, would you like to address that?
    Mr. Allen. Well, sir, information we would desire are 
accident rates, the true picture of how the aircraft performed 
in the combat environment in Iraq and Afghanistan so we can get 
a better picture, understanding that that environment is 
totally different from the environment that we have here, but a 
full picture of how they have operated in the past, and then 
how we will operate in the future and get that data would give 
us a better understanding in terms of the risks that we are 
dealing with so that we can make the best decisions, moving 
forward, for safety.
    Mr. Thompson. How outstanding is that data request from 
DOD?
    Mr. Allen. Well, sir, we are continually working on that on 
a continual basis. I would offer that sometimes it is a matter 
of understanding what data is asked for and how people perceive 
data. I know there are concerns of misinterpretation of data 
and some concern of giving data misinterpreted, and therefore 
not arriving at the right conclusion.
    So we have been working at this over at least the past 
year, and we are getting more data from them all the time. But 
the main point here is that explaining our conservative 
approach at times, because we want to make sure we ensure 
safety, the more data we get, then the more leaning-for we can 
be in providing access of the UAS to the NAS.
    Mr. Thompson. So you continue to request additional data?
    Mr. Allen. We request and we work, and we get it as well, 
sir.
    Mr. Thompson. So now, does that continuing to request data 
lengthen the time for the certificates of authorization to be 
issued?
    Mr. Allen. No, sir. I would argue that it does not. It will 
help us strategically to provide guidance and improve our 
process, but I would argue that it doesn't provide a direct 
bearing on the time frame that we are approving these 
certificates of authorization.
    Ms. Kalinowski. When we are dealing with specific 
certificates of authorization, we will receive the information 
that we need in order to evaluate the safety case for that 
particular operation, whether it be for Customs and Border 
Patrol, Coast Guard, or for the Department of Defense or any 
other operation within the civilian NAS.
    What we are looking forward to is more complete 
understanding of how all the different aircraft operate, their 
accident rates, the problems that they may have had with lost 
link or communications, and the problems that we--the 
challenges that we have found together in training pilots and 
bringing them forward into a safety management system. The more 
we understand about safety, the more we can work toward 
integration more fully into the National airspace system on a 
regular basis.
    Mr. Thompson. Thank you.
    I mentioned I was in Arizona last weekend, along the 
southern border, Douglas, Arizona, the Tucson sector. It is 
difficult to say to the ranchers a UAS is better than boots on 
the ground.
    One of the things, General, I think you will need to 
provide the committee with is the successes or whatever 
justification for interdictions, or what have you, that have 
occurred within a period of time so that, the next time I am 
there, I can be, pardon the pun, a little armed with 
information. We have had some difficulty, as you know, getting 
that hard data.
    Just for my information, we now buy Predator UASs. Am I 
correct?
    Gen. Kostelnik. It is in the Predator family, but it is the 
MQ-9, not the MQ-1. So in the Air Force terminology, the 
Predator is the smaller one. The Reaper is the larger one, and 
the Predator B is the same as the Reaper. That is the one we 
are flying, the large Predator.
    Mr. Thompson. Thank you.
    Have we found an equal UAS that is cheaper than what we are 
paying now that provides the same level?
    Gen. Kostelnik. No, sir. There is no real clear competitor 
on the world stage with the experience. This is from a family 
of Predator series vehicles, starting with the MQ-1, MQ-9, now 
Reaper, then the Guardian. These aircraft have flown more than 
a million hours. That experience alone, there is no other UAV 
with that kind of experience. That is part of the risk 
reduction.
    Mr. Thompson. Yes. Yes, the experience is one thing, but 
the capability is the other. So your testimony is that, from 
your experience, that capability does not exist anywhere else?
    Gen. Kostelnik. No. There is no clear competitor for the 
Predator B class with the equipment, sensors, and the 
capability at this time.
    Mr. Thompson. Thank you. I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Members, we are going to go ahead. We have got, actually, 
none time remaining, so we have got to run up there. We will be 
right back. We will go ahead and recess this committee meeting 
for a couple minutes till we get back. So, at ease.
    [Recess.]
    Mr. Cuellar. We will go ahead and get the committee as we 
are waiting for Members to come in.
    As we are doing this, let me ask a question to Admiral 
Atkins. Tell us a little bit about the pilot program that you 
are all doing in Florida, the maritime--I believe you are doing 
that with CBP.
    Adm. Atkins. Well, yes, sir. In fact, it is using the 
Guardian, and it is basically for us to understand, in the 
maritime, how do we take the sensors on that Predator B that 
have been marinized and how do we use it? In fact, that is the 
same bird that we are using on the Deepwater Horizon oil spill.
    So given the sensors, and given its altitude, how do those 
sensors act in terms of finding the oil, tracking the oil, and 
how do we move that information from the bird to the shore and 
to those folks who can use it? So it is a real good effort to 
understand how to expand the utility of this tool to something 
that we didn't think about before, oil spills. You know, 
Deepwater Horizon was eye-opening in a lot of ways, and this is 
one in particular.
    Mr. Cuellar. Okay. All right.
    Why don't we go ahead and continue with the Ranking Member, 
Mr. McCaul, from Texas? Recognized for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman, and let me say what an 
honor it is to be the acting Ranking Member on this 
subcommittee.
    Want to thank the witnesses, and it is good to have some 
Texans, I hear, as well. I also want to thank the FAA for the 
certificate of authority that was issued for Texas, Corpus 
Christi, and commend the Chairman, Chairman Cuellar, for his 
hard work in getting that certificate accomplished. I am not 
sure if you heard that or not, but I was complimenting you.
    Mr. Cuellar. No. well, I was just--the gentleman next to 
me. I thought it was----
    Mr. McCaul. So I know you worked hard to get that 
certificate, and I was commending you for that.
    I want to talk about--in general, I appreciate the meeting 
we had yesterday, very insightful. I think we in the Congress 
think, you know, all we have to do is appropriate dollars for 
UAV and it is taken care of. But the fact of the matter is, 
when you talk about the systems and the complete systems, there 
is a lot more that goes into this, more than just a UAV. There 
is a ground control station, airfield infrastructure, the 
pilots that you have mentioned, and other additional funding 
for that.
    Which kind of takes me to my next question. This is going 
to be really, I think, focused more for the general and the 
admiral to answer this question. In terms of the--and let me 
say first, the UAVs I think are real integral part of our 
secure border initiative. They are not the complete 100 percent 
answer to it, but I think it is one piece to providing the 
surveillance that we need.
    I think the point has been made that we are using this 
technology in Afghanistan and in Pakistan, and it is been 
effective to help secure that border. We ought to be using it, 
in my judgment, on the southwest border and northern border, 
which I am pleased to see that we are going in that direction.
    But in terms of resources and needs, that is what we like 
to help you accomplish in terms of the mission. The long-term 
mission in providing full security on the border with respect 
to UAVs, what is the need? What can Congress do to authorize 
and appropriate the appropriate resources that you need to 
accomplish this mission?
    Gen. Kostelnik. Well, I would say a good first look at that 
would be the annual strategic plan that we provide the 
Congress. It covers more than just the UAS systems. It covers 
the aircraft as well.
    But, you know, we have been working on our program now for 
5 years, and I think we have built a pretty credible, though 
still small and maturing force. In that plan, the last one, you 
know, calls for a ultimate fleet of about 18 aircraft and the 
pilots and the associated equipment to go along with it.
    So if you look at your vision and your operational kind of 
need, some of which is still evolving because it is based on a 
threat, perhaps, we haven't seen, well, I think the UAVs in 
their current deployment are very helpful in terms of the 
missions we apply it for. I believe we are building a force for 
a threat and an experience we really haven't seen yet. It is 
something that is in the future.
    So you really have to decide what your need will ultimately 
be in terms of mission set. From that, you can get to aircraft, 
and from that you can get to control sets and bases and all 
those things. We have had, you know, very good support from the 
Congress in building this program. We have another aircraft we 
will procure, you know, next year, and that is very helpful.
    Our shortcomings have been in pilots. Some of that is just 
the time it takes to grow, and finding people that want to do 
it and are competent to do it. We certainly need help in O&M. 
People forget that it takes, you know, gas and spare parts, and 
most of the Predators are contractor support from General 
Atomics, not inexpensive.
    Then, ultimately, when you go into main operating bases and 
the airplanes are just airplanes, but they do require hangars, 
and Corpus would be a good example. It is a Navy training base. 
Hopefully, with their support, we are going to be posted there, 
but, you know, hangars become, you know, an issue.
    So the reality is I think that strategic plan would give 
the Congress a good sense, and then consistence on, you know, 
National priorities and resources, one can, you know, pick and 
choose about how rapid the growth could be based on emergent 
needs. Today, our--of 18 aircraft would be modified by our 
experience with the Guardian.
    So now, we would look in our end-game and have an 
acquisition decision memorandum for a fleet of ultimately 24. 
Today we have seven that are procured. We will have eight next 
year in the supplemental. I believe the President has also 
offered a couple additional ones. But our normal procurement in 
each budget cycle is about one system per year, so you can see 
how long that would take to get there.
    Mr. McCaul. I appreciate that.
    So as I understand it, I mean, the ultimate goal would be 
to get to 24?
    Gen. Kostelnik. If you--a vision that you would want the 
capability to provide this kind of overhead support on a 
contingency basis, in fact that plan for 24 would allow for a 
3-hour response to have a Predator overhead anywhere in the 
continental United States.
    Maybe we don't need that kind of capability. I mean, that 
is the uncertainty that you plan for. While we haven't seen 
that strong requirement to pull yet, maybe you only need part 
of that. So we are building as quickly as we can.
    The limits really aren't aircraft right now. Sometimes it 
is COAs. Now that, you know, we have made some progress there, 
it is not COAs. Today it is really pilots, in fact, people who 
can launch and recover.
    It goes back to the issues. We are all here talking about 
unmanned. The real issues have nothing to do with the unmanned 
part. The real issues are all about the manned piece, and this 
is a manpower-intensive system.
    Mr. McCaul. We talked a lot about that yesterday. I think 
the pilot is, as you mentioned it, is an important piece that 
is overlooked. I know you requested 144. You have only received 
24 of those positions. Would 144 help you complete this long-
term mission?
    Gen. Kostelnik. Well, there really wasn't anything magic 
about the 144. The 24 was a specific appropriation from the 
Congress to help us with UAV pilots, and that was in 2009. The 
144 actually included a lot of program managers, engineers. I 
mean, air marine is a very small, high-ops tempo. We do 
everything the Air Force, Navy, Army does, but we are really 
more like the special operations piece. So our program office 
in the Air Force might be 100 people or four or five people, 
you know, doing multiple things.
    So the 144 was a plus-up to cover a lot of bare areas 
besides just the pilots. There might have been another 20 or so 
pilots in that number that would be helpful, but pilots, you 
know, right now, having them operational is a concern. We can 
qualify many of the pilots that we have on board.
    Mr. McCaul. When you mention the 24 number, you are talking 
about complete systems, UA systems?
    Gen. Kostelnik. Well, you wouldn't necessarily need 24 of 
everything. That would be 24 aircraft, and then below that 
there would be so many GCSs, because you don't need a ground 
control system for every GCS. You would have six operational 
sites, so you like to have two control sets at each site, one 
for a backup, and then we deploy these assets--with the Coast 
Guard.
    We can fly the airplanes. We can truck them. So, if you 
move to deploy the airplanes to other places on this 
hemisphere, in fact, for other kind of missions supporting 
other Federal and National entities, then you may need other 
things. But once you decide on a strategy and a plan, you know, 
then you start to lay in. But 24 aircraft would be correct, but 
you wouldn't buy 24 GCSs.
    Mr. McCaul. Right. This won't happen overnight, either. It 
takes time. I think, incrementally, each year you build to get 
to that number.
    Gen. Kostelnik. Right.
    Mr. McCaul. I know my time has expired, but is it okay if--
indulge the Chair?
    Admiral, do you have any response to that question?
    Adm. Atkins. Yes, sir. The Coast Guard is right now in the 
needs definition phase, and that is why Congress last year 
appropriated $5 million through our research and development 
test and evaluation fund to help us work with CBP and the Navy 
to understand existing on-going efforts relative to UAS. So, 
our plan is to reduce our acquisition risk, reduce our 
operational risk by understand and leveraging lessons learned 
from other UAS users already, DOD and our DHS brothers and CBP.
    In terms of future resources requirements, the Coast Guard 
requirement is going to be predicated on the type of bird that 
you ultimately decide you need and its capabilities, and how 
does that fit into our fixed-wing--our gap, you know, because 
our fixed-wings provide so many resource hours to fly on a 
mission. So, depending on how much mission you have, you end up 
with a gap.
    So anticipating that gap and working UAS into that gap is 
part of our solution set.
    Mr. McCaul. Let me just close with this comment, and that 
is I think there is clearly bipartisan support for this 
mission. I look forward--I know the Chairman does as well--
working with you to identify what the needs in terms of 
resources are for you.
    I think as the Chairman mentioned in his opening statement, 
we are really here to work with you and not against you. So I 
just wanted to, you know, close with that comment.
    Thank you.
    Mr. Cuellar. Thank you, Mr. McCaul.
    At this time, the Chairman recognizes the gentleman from 
New Jersey, Mr. Pascrell. A pleasure.
    Mr. Pascrell. Ms. Kalinowski, has the DEA and the ATF 
applied for these COAs?
    Ms. Kalinowski. I can get back to you with that specific 
information. But to my knowledge, no.
    Mr. Pascrell. You don't have a breakdown of the applicants 
for the COA?
    Ms. Kalinowski. I do back at the office. I did not bring 
that with me.
    Mr. Pascrell. General, thank you for your service. I would 
like to ask a very specific question about how much stronger 
these unmanned aerial systems will make our border security 
efforts.
    I would like to talk about two specific areas. The two 
specific areas are arms traffic and drugs, illicit drugs. I 
would like to know what we are doing about it, be it north, 
south, in space. What are we doing about it as far as what we 
have been talking about here today? Secondly, what cooperation 
are you getting from DEA and ATF?
    Gen. Kostelnik. Well, of course, ATF has a lot of efforts 
on-going, and as the DEA on the arms transport. Much of that is 
done, as you probably know, through the ports of entry, so 
there are a lot of sophisticated scanning and intelligence-
based operations trying to interdict the flow of U.S. weapons 
going south through the ports of entry.
    DEA, we have a lot of relationship with. They have their 
own Air Force activities, but they do not operate the military-
style equipment that we do, nor do they have the UAS 
capability. We routinely support very high-end DEA missions in 
the United States and outside U.S. borders in the Caribbean and 
other places with our Blackhawks and with our, you know, high-
end equipment.
    Mr. Pascrell. How effective would the unmanned craft be in 
seeking out the tremendous--what we have been reading, anyway--
transportation of drugs across the border into Mexico from the 
United States of America?
    Gen. Kostelnik. Now, I think these are very effective. They 
do similar things that the manned aircraft do, as the admiral 
was talking about. In fact, we fly a lot of these aircraft, or 
P3s, to similar kinds of work with the Coast Guard cutters out 
in the, you know, eastern Pacific.
    But let me just offer you a little vignette to give you a 
sense for how it is actually working. You know, we have 
ultralights flying across the Arizona border now, very small, 
single-manned, not very sophisticated. It carries 250 pounds of 
marijuana. We can see these things from radar on some cases, 
depending on their altitude, and we track those to where they 
go.
    When there is a Predator overhead, and we can hand over 
that track to the Predator and the Predator is talking with man 
assets, and these aircraft, when they used to land in the 
desert, we could have a helicopter with a Border Patrol agent 
to interdict, get the airplane, get the dope, get the 
individual. I mean, that is pretty good.
    With the UAV, though, you have some options. You don't 
really have to interdict the airplane. Now they are dropping 
the drugs on the ground rather than landing because our 
interdiction has gotten so good. But what you can do is you can 
wait and loiter, because now the UAV can fly all night.
    You can see who comes to pick the drug up, and, depending 
on where they are going, you can tail with overhead 
surveillance the drug to the stash house, and you can take down 
the accumulation of all the loads plus all of the 
infrastructure. So there are a wide variety of capabilities 
that the UAVs have been bringing to our southern border 
operation for the past 5 years. We have ground-based sensors, 
Vietnam-era sensors, laid all across our border.
    Mr. Pascrell. How many agencies, General, are involved in 
interrupting and confiscating weapons across the borders of the 
United States of America? How many agencies are involved? Can 
you tell the committee that?
    Gen. Kostelnik. I would say that the bulk of the ones that 
you have named--certainly ATF, certainly ICE, certainly DEA, 
certainly U.S. Customs and Border Protection--then our 
partners, you know, down south. In fact, there is a unified 
command, inter-agency, including the FBI, of all of the 
interested--and Coast Guard--all of the interested agencies 
that are focused on all of these things.
    They pick up weapons. They pick up narcotics. They pick up 
illegal immigrations and are looking for terrorists. The ATF is 
the primary agency responsible for those things, but we look 
for all of these things in the interdiction efforts.
    Mr. Pascrell. Thank you.
    Mr. Chairman. I would like to have, and I think the 
committee would like to have--and we have asked for it before--
all of the interdictions, the number of them and--in other 
words, let's quantify this.
    I want to know how effective we are in interdicting 
ourselves between the weapons that are coming from the United 
States into either Canada or Mexico, and I want to know all of 
these--and we have--if we have a unified command, and I will 
take the General's word for that, we should be able to tap into 
that command and find out how effective manned, as well as 
unmanned, craft are doing in helping us do that.
    I think we will be astonished to learn what those results 
are.They are kind of unbelievable. The same thing in terms of 
drug traffic and with drugs across our borders back and forth.
    I have never seen a real detailed report to this committee 
about how effective we are in doing that, and I am not 
convinced, Mr. Chairman, that this is a priority of our 
Government's, to interdict weapons that are moving from the 
United States into Canada or Mexico, et cetera.
    These weapons are being used against not only the 
populations of the countries I have just mentioned, but against 
our Border Patrol and our agencies, ATF and DEA specifically. I 
believe it has gone on to a epidemic proportion, and I think 
that we need to know this.
    Can I rely on you to get that information?
    Mr. Cuellar. Let me go ahead and say this: I think it is 
extremely important that we see results, because there was an 
investment to be put in in large numbers. We certainly have to 
see those results.
    So, General, go ahead and get us, within 5 working days 
from today, that information. I will put it specifically in 
writing. I will have the committee clerk get that. We will work 
with you to make sure that we get that results. Like to get 
also the Coast Guard also to make sure we get that information 
within 5 working days. I am sure you have got that information 
available, and I think that would help, for the ones that do 
believe in this project, to make sure we sell this, that if 
there are individuals that do have questions, in order for them 
to analyze this, we need to get that information. So 5 working 
days from today.
    At this time, Mr. Pascrell, if you are finished, I am going 
to go ahead and move on to--we will get you that information to 
be shared with the committee Members.
    At this time, the gentlewoman from Texas, Ms. Jackson Lee, 
is recognized for 5 minutes.
    Ms. Jackson Lee. Thank the Chairman. Appreciate the 
committee holding this hearing with the Ranking Member.
    I apologize for not being here for testimony. We were 
engaged in meetings regarding the on-going crisis in Haiti and 
maybe the potential for individuals seeking asylum here on the 
basis of the devastating conditions there. But I appreciate 
your presence and the importance of this hearing, and would 
like to just note some comments, and this will be the framework 
of my questioning.
    The Arizona law that is now in the center of controversy is 
obviously implemented on the basis of the inaction of the 
Federal Government and the need for States to take charge. It 
is moving toward epidemic stages because the State of Texas now 
has a legislator who has indicated that they intend to file 
similar legislation. Again, it falls back to, well, the Federal 
Government is not enforcing the law.
    These are unique equipment, or unique assets that I assume 
are to be used to help us enforce the law. They are 
particularly unique in their technology because they are 
unmanned and they should give us the kind of information that 
could calm the fears of the citizens of Arizona and/or the 
leadership of Arizona, and hopefully the rational leadership of 
Texas.
    I would like to be able to be an advocate that we are, in 
fact, enforcing the law and that we need to further reform our 
laws through comprehensive immigration reform to be able to 
answer some of the concerns of my friend and colleague from New 
Jersey, and that is to protect our borders, to protect our 
staff in Customs and Border Protection, and to rid ourselves of 
the bad guys.
    So I would like to hear from Major General Kostelnik and 
Rear Admiral Atkins if this--and I don't know. I will yield to 
the two of you as to some direct success stories in the 
utilization of the unmanned aerial systems.
    Is it one could point to some success stories on the border 
of Arizona? Can one point to some success stories on the border 
of Texas? Obviously there are a number of other, New Mexico, 
California, that would have some ultimate impact.
    But if you would, let's start with you, Major General.
    Gen. Kostelnik. Yes. In response to that, I would offer, 
you know, a vignette about how the Predators have been used 
particularly in the Arizona border, where that is one of the 
major quarters for illicit trafficking, both immigration and 
narcotics, with the platform.
    In the old classic days of border enforcement--and I know 
you all have been out to the desert. It is very remote, very 
rugged, you know, not a lot of infrastructure, so the Border 
Patrol still have horse patrols out there, drive out in ATVs 
and all type of things. With these sensors that we have across 
the border, the ones I was mentioning to the Congressman, they 
detect vibration or motion.
    So we have those arrayed all across the border on the U.S. 
side, and when something passes or something happens in the 
traditional sense, a Border Patrol agent on a horse or a car or 
walking had to go out and see what set that sensor off.
    Unfortunately, these things are not very dependable. Wind 
will set them off. Animals will set them off. Sometimes it is a 
small group of migrants, sometimes it is a large group of 
migrants. Sometimes it is 50 people carrying weapons and 50-
pound bags of marijuana, and it makes a big difference.
    Today, and for the past 5 years, we have had Predators not 
in the air all the time but in the air nightly, and they are on 
patrol. When a sensor goes off, we don't send people out to 
look at the sensors anymore. The Predator is already airborne, 
already loitering, flies over, looks at the sensor with a FLIR, 
and on a typical night we might have 25 sensor activations go 
off in a 10-hour period.
    At a standard 15 sensor activations, 12 of them might just 
be the wind. Two might be animals. One might be a group of 
migrants, and one might be a big group carrying drugs.
    If it is a small group, we will launch a single Border 
Patrol agent on a small helicopter. They will land and they 
will take care of the issue. If it is 50 people carrying 
weapons and 50 pound bags of marijuana, which we have had on 
numerous occasions, we launch the Blackhawk with a Border 
Patrol special team.
    The Blackhawk lands short, Predator stays on top. You know, 
everybody has on night vision goggles. We use the laser from 
the system. Very efficient and effective way of getting the job 
done.
    Ms. Jackson Lee. Yes. Let me quickly get this last question 
in, and then, Admiral, if you can answer.
    But to the FAA quickly, and if the Chairman will indulge me 
an additional--I ask unanimous consent for them to be able to 
answer the question. This goes to the two representatives, and 
particularly Mr. Allen, and then if Nancy Kalinowski would like 
to answer. Admiral, I would like you to finish on my first 
question, if you would.
    Many have expressed concerns about the length of time it 
takes the FAA to approve a certificate of authorization to 
operate a UAS in the National airspace. I am concerned that, if 
it is a certificate of authorization and it is not regulated. 
I, frankly, find that a problem.
    I would like you to explain how FAA's COA process works, 
what are FAA's primary concerns when it is determining whether 
to approve a COA, and finally, that some reports have indicated 
the FAA is concerned about the potential for mid-air collision 
involving UASs. Would you elaborate? Would you think that there 
are safety challenges? What measures do you think the FAA UAS 
operators need to take to keep air traffic safe?
    Mr. Allen.
    Mr. Allen. Yes, ma'am. Ms. Kalinowski would be best 
disposed to talk to the COA process itself, so I will address 
your other questions, if you please.
    In terms of priority basis, as was stated earlier, it is a 
first-come, first-serve basis except for when the mission 
dictates that there is an issue of National security, of 
National defense, of a higher priority in terms of a National 
disaster. Obviously then we up the priority and address those 
COAs immediately. We also have standing COAs to be approved at 
a moment's notice to address security and National catastrophe 
issues so that we do address those issues right away.
    Ms. Jackson Lee. What is right away--24 hours, 10 hours?
    Mr. Allen. Actually within hours, within minutes, actually.
    Ms. Jackson Lee. Do you consider the COAs that these 
gentlemen work with as the National security? Is that what you 
are saying?
    Mr. Allen. If you are looking at the track record, the 
first time they provided a COA request, I think it languished 
for approximately 2 years. We agree that that was not 
appropriate. At the time, we did not know or not advised of the 
priority. When we were advised of the priority, those were 
worked very, very quickly to provide that capability.
    But in terms of, let's say, a hurricane relief, fires, we 
have COAs ready to go to allow them to operate the UASs 
expeditiously and not waiting days, not waiting weeks. That is 
the IAF priority.
    Ms. Jackson Lee. Ms. Kalinowski, you have the answers to 
the other questions?
    Ms. Kalinowski. Yes. To apply for a certificate of 
authorization, Congresswoman, the proponent submits the 
application on-line to the FAA, and then the FAA evaluates the 
request. Internally, the Air Traffic Organization examines the 
applications for feasibility, the airspace experts review and 
ensure the operation will not severely impact the efficiency or 
the safety of the National airspace system.
    The application is then sent to Mr. Allen's organization in 
Flight Standards to evaluate the operational concept, the 
airworthiness of the release of the aircraft, the pilot and the 
crew qualifications, and the policies and the procedures used 
by the operator for the particular mission that they are 
proposing.
    From that in-depth safety evaluation, we write out special 
provisions, and then our internal offices confer together to 
address any of the remaining concerns that we might have and to 
harmonize some of the provisions that we have put forward in 
order to ensure that there is safety associated with a 
particular certificate of authorization.
    We work closely with the proponents to understand their 
operational needs, their mission needs, and to balance that 
with the FAA's safety concerns for the operation to ensure that 
there is no safety impact to the National airspace system.
    Ms. Jackson Lee. I will wait for my other answers, then I 
will yield back, Mr. Chairman.
    Mr. Cuellar. Thank you very much.
    At this time, the Chairman recognizes Mr. Carney for 5 
minutes.
    Mr. Carney. Thank you, Mr. Chairman. I apologize if this 
was covered while I was away.
    You know, in my other capacity--I think you know that I am 
a Predator-Reaper mission commander, and one of the things that 
we have a challenge with is using all the data, or interpreting 
all the data gathered. You know, even in the small, short-
duration mission, there is a lot of information there.
    Are you set up, or setting up, to be able to exploit all 
that information? Do you have PIs in place that can look at the 
information and interpret it, you know, and do the studies that 
you need to do, looking at, for example, known crossing areas 
when they have been--you know, that sort of thing?
    You know, do we have in place the infrastructure needed to 
exploit everything we are going to get from this resource?
    Gen. Kostelnik. Well, 2 years ago, the answer to that would 
have been no. When we started operating the sensors in support 
of the hurricanes, clearly that was the part of our focus. 
Today, you know, thanks to some support we have had from the 
Hill, we are putting in a classic DOD PED cell into the AMOC 
this summer. In fact, it will be operational towards the end of 
September.
    A PED cell is a Processing, Exploitation, and 
Dissemination. So it does the real-time, photo interpreted as 
real-time analysis, and then it does back-shop dissemination to 
all the National users.
    For the last year since the hurricanes, actually we have 
been using exactly the same capability at NGA. In fact, in 
supporting the Deepwater Horizon event, the Guardian is feeding 
imagery real-time to the NGA PED in St. Louis, and they are 
doing the data analysis and then sending it back to the 
management team, you know, in the Gulf.
    So, no, this was the last piece of our operation that we 
had to build. As we get into this next fiscal year, we are 
going to have that complete capability.
    Then, downstream, we will be putting other distributed PED 
cells at other places on the country, but we already have the 
connectivity and the relationship not only within CBP and DHS, 
but also with the DOD protectorates, NORTHCOM, SOUTHCOM, JIATF 
SOUTH, to feed the real-time imagery direct to those 
infrastructures, as well.
    Mr. Carney. So are the DOD components actually helping back 
up what you guys are doing now?
    Gen. Kostelnik. Well, we are not using them on the PED 
cell, but we are actually buying exactly the same system that 
the Air Force Special Ops 11th Intel Squadron uses so we don't 
reinvent the wheel. We are not taking any risk. We are buying 
that capability right off the shelf. Clearly, their program 
officers are helping us with those acquisitions.
    Mr. Carney. But your PED cells are fully manned?
    Gen. Kostelnik. Well, that is the next stage. We have some 
of those capabilities in place. Clearly, we will have to grow 
those analysts over time.
    Mr. Carney. Right.
    Gen. Kostelnik. In the short-term, we do have help from DOD 
and other components that have that kind of expertise to help. 
But we will grow that over time.
    Mr. Carney. Okay. You know, we all understand the 
importance of the data gleaned. You know, we miss things in the 
heat of the operation that become useful later when we are 
planning other missions and a better understanding of what is 
going on. So whatever you need Congress to do to authorize more 
PED cell development, do not hesitate to contact us.
    Gen. Kostelnik. Since you raise that issue, I would offer--
maybe you are aware of this, and perhaps not. But, you know, 
the Predator Reaper is pretty limited streams, you know, pretty 
limited field of view and so forth. Of course, the Air Force is 
developing, and about to deliver, Gorgon Stare----
    Mr. Carney. Gorgon Stare, yes.
    Gen. Kostelnik [continuing]. Which is a wide area. If we 
have, you know, too much data to deal with now, when that 
system comes on-line, it is going to be extraordinary.
    In fact, I just served on the Air Force Scientific Advisory 
Board Somerset in UAS this year, and this is one of the biggest 
emergent problems with the United States. They are generating 
so much information, just the ability to actually get the real 
data from the information is the problem.
    That is even a investment that is harder to appreciate. You 
can see an airplane on the ramp. You can't see, you know, a 
digital analyst behind, you know, working these kind of things, 
but fundamentally important to the future, a real problem.
    Mr. Carney. Absolutely.
    Thank you. Thank you, Mr. Chairman. I appreciate the 
hospitality you have shown me in letting me sit in on your 
committee. Thank you.
    Mr. Cuellar. Mr. Chairman, it is always a pleasure.
    Members, I think we are pretty much done. Want to thank----
    Ms. Jackson Lee. I know the Chairman's time is moving. 
Could the admiral just--I cut him off when I asked whether 
there was any impact on the----
    Mr. Cuellar. One minute to answer that question.
    Ms. Jackson Lee. Thank you.
    Adm. Atkins. Just very brief, ma'am, we don't fly any UASs, 
so I defer to the general's answers.
    Ms. Jackson Lee. Are you not--well, they are not flown. 
They are unmanned. Do you not use any?
    Adm. Atkins. Not yet, ma'am. We are in the exploration 
phase. We are looking to get into the game.
    Ms. Jackson Lee. All right. I know you don't. I understand 
your mission. But you are here, and so the question is whether 
you would be using any unmanned.
    I would just conclude, Mr. Chairman, by saying that I have 
a level of discomfort on the process of certification, and I 
have level of discomfort of the effectiveness of them. I think 
the major general did a very good job, but he spent a lot of 
time saying there was 99 percent throwaways, and we got one or 
two, and when we got them, then we swoop down and get them.
    I don't know whether or not--well, my question then is I 
would like a detailed--and I think it was Mr. Pascrell's 
comment--response as to what are the success stories and 
whether or not there is a direct coordination that works 
between major general's team and FAA so that it is immediately 
assessed that the National security issue and all of the talk 
that was done about process, it is moved quickly and confirmed 
to be utilized. I would hope that we can get those answers as 
quickly as possible.
    I yield back to the distinguished Chairman.
    Mr. Cuellar. Right. Thank you very much, Ms. Jackson Lee.
    I would ask the FAA, Ms. Kalinowski, if you all could go 
visit and spend some time with the Chairwoman on this 
particular issue. I think that would be good. I know that I 
have spoken to the administrator several times on this issue, 
and tell him I appreciate the work that he is doing. But if it 
is okay with you, Ms. Jackson Lee, I would ask you to spend 
some time.
    But General, I think you are understanding--getting a 
feeling from some Members, they want to see the results, 
including myself. If you would get that to us, and Ms. Lee, we 
are going to prepare a letter to give you the exact 
information. We will get it out today, because I do want to get 
it 5 working days from today so he can get it back to the 
committee.
    So we will put a letter with your input, get it over to our 
clerk.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Cuellar. All right. Well, at this time, I want to thank 
all the witnesses for being here, for testifying, and we thank 
you for the information you have provided, and of course the 
Members. Members might have additional questions, as you just 
saw, so please provide that over to us.
    Hearing no further business, the subcommittee stands 
adjourned. Thank you. Good day.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Michael 
                              C. Kostelnik
    Question 1a. In 2004, CBP tested the Hunter and Hermes 450, two 
medium altitude-medium endurance UASs, as part of its Arizona Border 
Control (ABC) Initiative. CBP reported success with both of these UASs, 
but the following year purchased the Predator UAS, and has continued to 
do so as it has acquired additional UASs in recent years.
    Did CBP have success with intermediate-sized UASs?
    Answer. No. CBP's experience with intermediate-sized UASs was 
limited to the 2004 proof-of-concept demonstration using the Hermes and 
Hunter unmanned aircraft in the restricted airspace of the Libby Army 
Airfield. These platforms were chosen due to their availability, but 
were sensor limited (Electro Optical Infra-Red (EOIR) capable only). 
They were used solely to evaluate the possible effectiveness of an 
unmanned aircraft in a law enforcement role. The demonstration proved 
UASs merited further examination for use by DHS, but would require 
significant analysis by CBP end-users to assess what type of UAS and 
sensor configuration would be most effective for border security 
missions.
    Although adequate for the purpose of the proof of concept 
demonstration, intermediate-sized UASs failed to meet CBP's operational 
requirements for endurance, performance, sensor capability, and flight 
in the National Airspace.
    Question 1b. If so, why does CBP continue to purchase larger, more 
costly Predator UASs?
    Answer. As stated, intermediate-sized UASs did not meet CBP 
operational requirements, and were only used as a proof of concept 
platform.
    The Office of Border Patrol, in conjunction with CBP's Technology 
Solutions Program Office, developed operational requirements for UAS 
employment that led to the development of a number of key performance 
parameters (KPPs). These KPPs could not be satisfied by intermediate-
sized unmanned aircraft.
    Question 1c. Has CBP conducted an analysis that shows the Predator 
is the best tool for the border security mission? If so, please share 
that analysis with the committee.
    Answer. The analysis that led to the selection of the Predator B 
was in conjunction with the DHS Source Selection Team technical 
evaluation and source selection of July-August 2005. With the exception 
of the General Atomics Predator B, all of the aircraft examined by the 
source selection team failed to meet CBP's technical specifications for 
payload carrying capacity and capabilities; take-off performance with 
the required payloads; requirements for remotely-piloted operations; 
time on station; and a number of other requirements.
    Question 2a. CBP currently owns and operates six UAS, but only one 
is based on the northern border (at the Grand Forks Air Force Base in 
North Dakota).
    What is CBP's justification for its current UAS resource 
deployment?
    Answer. It is correct that CBP currently owns and operates 6 UASs, 
but actually two are located at Grand Forks Air Force Base in North 
Dakota.
    CBP's UAS resource deployment is based on several factors including 
threat assessment and mission sets. In addition, all UAS operations in 
the National Airspace System (NAS) must be approved and authorized by 
the FAA to determine that they meet the appropriate level of safety and 
air space management requirements. Accordingly, FAA regulations 
currently limit where and when CBP can operate the UAS.
    Question 2b. How does CBP prioritize which sectors to devote UAS 
resources to?
    Answer. Prioritizing of UAS assets is accomplished by ensuring that 
all mission sets are reviewed and analyzed against threat assessments 
from multiple intelligence sources, in conjunction with the requesting 
customer (Office of Border Patrol, ICE, FBI, DEA, FEMA etc.) we are 
currently supporting.
    These mission sets consist of:
    Response to National Catastrophic Events.--Chemical, biological, 
and nuclear attack, earthquakes, hurricanes, flooding, and mass 
migration.
    Border Security.--Response to border violence, people smuggling, 
and drug trafficking, National special security events; support to 
other Federal, State, local, and Tribal authorities; cooperative 
operations with Mexico and Canada (extension of existing agreements and 
building on past operations, i.e., HALCON).
    Maritime Security.--Persistent, wide-area surveillance of open 
ocean/source transit zones.
    Forward Operating Locations.--The UAS Program is postured to 
rapidly deploy throughout the western hemisphere to provide 
humanitarian and homeland security support. Capability exists to deploy 
entire systems to Central and South America, to support joint missions 
with DEA and cooperative countries, and to leverage foreign basing 
agreements already in place with the USCG.
  Questions From Chairman Bennie G. Thompson of Mississippi for Nancy 
                      Kalinowski and John M. Allen
    Question 1a. Our committee is interested in understanding the FAA's 
perspective regarding the challenges of operating UASs in the National 
Air Space.
    What is the current volume of air traffic in the corridors where 
CBP has been granted permission to operate UASs?
    Answer. Attached are spreadsheets that tally flight through areas 
of Arizona/ New Mexico/west Texas and south Texas for a sample period 
of May 1 through May 7, 2010. The spreadsheets are categorized by 
instrument flight rules (IFR) and visual flight rules (VFR) flights. 
The source of the data is the FAA Offload Program database.

                                                           NUMBER OF IFR FLIGHTS PER WEEK DAY
                                                              Source = FAA Offload database
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                  Grand
                    Region                                  Corridor                SUN      MON      TUE      WED      THU      FRI      SAT     Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
South Texas:
                                                Brownsville East to Houston.....    1,103    1,548    1,560    1,580    1,509    1,537    1,081    9,918
                                                Brownsville West to Laughlin....      441      612      665      634      636      743      456    4,187
                                               ---------------------------------------------------------------------------------------------------------
      South Texas Total.......................  ................................    1,544    2,160    2,225    2,214    2,145    2,280    1,537   14,105
                                               =========================================================================================================
AZ/NM/WTexas:
                                                Yuma to Nogales.................      338      421      491      514      533      534      388    3,219
                                                Nogales to El Paso..............      271      275      308      312      335      326      324    2,151
                                                El Paso to Laughlin.............      622      736      735      767      775      713      696    5,044
                                               ---------------------------------------------------------------------------------------------------------
      AZ/NM/WTexas Total......................  ................................    1,231    1,432    1,534    1,593    1,643    1,573    1,408   10,414
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 1b. Are there certain areas of the country that pose 
special considerations? Please explain.
    Answer. The United States National Airspace System has different 
classes of airspace. Each class of airspace has specific operating 
requirements. Currently, the only class of airspace that does not have 
Unmanned Aircraft Systems is Class B and, in most cases, the associated 
Part 91, Appendix D, Airports/Locations: Special Operating 
Restrictions. In addition, flight over populated areas is not allowed.

                                 <all>

</pre></body></html>
